                                                                             Report No. DODIG-2013-126




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 6, 2013




                     Improvements Needed at the
                     Defense Advanced Research Projects
                     Agency When Evaluating Broad
                     Agency Announcement Proposals




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                         Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Improvements Needed at the Defense Advanced
                                       Research Projects Agency When Evaluating Broad
                                       Agency Announcement Proposals


September 6, 2013                                     Finding Continued

Objective                                                •	 provide required support for the contract type selection or
                                                            obtain approvals for the contract type one level above the
Our objective was to determine whether                      contracting officer for 32 cost-reimbursement contracts
the Defense Advanced Research Projects                      because DARPA personnel assumed the FAR requirements
Agency (DARPA) properly awarded contracts                   did not apply; and
from broad agency announcements (BAAs).
Specifically, we reviewed contracts awarded and          •	 determine the adequacy of the contractors’ accounting
funded by DARPA from DARPA BAAs published                   systems for 13 of the 32 cost-reimbursement type contracts
in March 2011 through September 30, 2012.                   because personnel provided inadequate or no support for
We reviewed 36 contracts awarded from 9 BAAs,               the adequacy of the systems.
with a value of about $426.4 million.
                                                      Although we did not identify any contracts that DARPA personnel
                                                      should not have awarded, DARPA may not be able to justify
Finding                                               that personnel adequately substantiated proposal selections.
                                                      In addition, contracting personnel increased DARPA’s contracting
DARPA personnel did not consistently adhere
                                                      risks when issuing cost-reimbursement contracts.
to the scientific review process and Federal
Acquisition Regulation (FAR) requirements
before awarding contracts from BAAs                   Recommendations
for 35 of 36 contracts. DARPA personnel did
                                                      We recommend that the Director, Defense Advanced Research
not fully implement the scientific review
                                                      Projects Agency, establish controls to verify scientific review
process or FAR requirements supporting the
                                                      process documentation is adequate.         We recommend also
contract type selection. Specifically, DARPA
                                                      reemphasizing internal requirements for approval of funding
personnel did not:
                                                      documentation, requirements within the cost-reimbursement
                                                      interim rule, and the Federal Acquisition Regulation requirement
   •	 prepare evaluation reports with detailed,
                                                      to appropriately complete the determination of the adequacy
      substantive narratives or adequate
                                                      of the contractor’s accounting system.
      Program Manager Summary Sheets to
      support selectability determinations
      for 28 contracts because personnel              Management Comments and Our
      did not follow internal policies to
      complete reports;                               Response
                                                      Management comments were responsive to the recommendations.
   •	 obtain contract funding document
                                                      DARPA agreed to issue guidance and implement training in response
      approvals for 12 contracts because
                                                      to the recommendations. Please see the Recommendations Table
      personnel did not follow internal policies
                                                      on the next page.
      to obtain approval from the Scientific
      Review Official;


Visit us on the web at www.dodig.mil

                                                                         DODIG-2013-126 (Project No. D2013-D000CG-0055.000) │ i
                   Recommendations Table
                                                          Recommendations         No Additional
                                    Management            Requiring Comment     Comments Required
                    Director, Defense Advanced Research                       1, 2, 3, 4, and 5
                    Projects Agency




ii │ DODIG-2013-126 (Project No. D2013-D000CG-0055.000)
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                4800 MARK CENTER DRIVE
                             ALEXANDRIA, VIRGINIA 22350-1500


                                                                            September 6, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
               DIRECTOR, DEFENSE ADVANCED RESEARCH PROJECTS AGENCY

SUBJECT: Improvements Needed at the Defense Advanced Research Projects Agency
         When Evaluating Broad Agency Announcement Proposals
         (Report No. DODIG-2013-126)

We are providing this report for your information and use. Of the 36 contracts reviewed, valued
at about $426.4 million, Defense Advanced Research Projects Agency (DARPA) personnel
did not consistently adhere to scientific review process and Federal Acquisition Regulation
requirements before awarding contracts from broad agency announcements for 35 contracts,
valued at about $424.6 million. As a result, DARPA may not be able to justify that technical
office personnel adequately substantiated proposal selections and increased contracting risks
when issuing cost-reimbursement contracts.

We considered management comments on a draft of this report when preparing the final
report. Comments from DARPA conformed to the requirements of DoD Directive 7650.3;
therefore, we do not require additional comments.

We appreciate the courtesies extended to the staff.        Please direct questions to me at
(703) 604-9077 (DSN 664-9077).




                                           a~d~vr:w~~
                                           {/!ac'!Aeline L. Wicecarver
                                             Assistant Inspector General
                                             Acquisition, Parts, and Inventory




                                                                                          DODIG-20 13-126   I iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Defense Advanced Research Projects Agency_________________________________________________1
                  Criteria, Guidance, and Processes Related to Broad Agency Announcements______________2
                  Cost-Reimbursement Interim Rule_____________________________________________________________5
                  Review of Internal Controls_____________________________________________________________________6

                  Finding. Better Controls and Practices
                  Needed When Evaluating Broad Agency
                  Announcement Proposals_ ____________________________________________________7
                  Implementation of the Scientific Review Process Needs Improvement_____________________8
                  Compliance With the Cost-Reimbursement Interim Rule Was Inadequate_ ______________ 13
                  Recommendations, Management Comments, and Our Response__________________________ 17

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 20
                       Universe and Sample Information_ _____________________________________________________ 21
                       Review of Documentation and Interviews_ ____________________________________________ 21
                       Use of Computer-Processed Data ______________________________________________________ 22
                       Use of Technical Assistance______________________________________________________________ 22
                       Prior Coverage ___________________________________________________________________________ 23
                  Appendix B. Contracts Reviewed_____________________________________________________________ 24
                  Appendix C. Review of Broad Agency Announcements_ ___________________________________ 26
                  Appendix D. Federal Acquisition Circular 2005-50 Issued on March 16, 2011___________ 28
                  Appendix E. Deficiencies Identified in Contracts Reviewed________________________________ 33

                  Management Comments
                  Defense Advanced Research Projects Agency Comments___________________________________ 35

                  Acronyms and Abbreviations______________________________________________ 38




iv │ DODIG-2013-126
                                                                                                                                Introduction




Introduction
Objective
Our objective was to determine whether the Defense Advanced Research Projects Agency
(DARPA) properly awarded contracts from broad agency announcements (BAAs).
Specifically, we reviewed contracts awarded and funded by DARPA from BAAs issued
by DARPA. This is one in a series of audits pertaining to DARPA. See Appendix A for a
discussion of the scope and methodology and prior coverage.


Defense Advanced Research Projects Agency
Mission and Organization
DoD Directive 5105.15, “Department of Defense Advanced Research Projects Agency,”
created DARPA as the Advanced Research Projects Agency (ARPA) in 1958. Since its
creation in 1958, the agency changed its name from ARPA to DARPA multiple times.
On February 17, 1995, DoD Directive 5134.10, “Defense Advanced Research Projects
Agency (DARPA),” established DARPA in its current form. The Directive states DARPA’s
mission is to serve as the central research and development organization of DoD with
a primary responsibility to maintain U.S. technological superiority over potential
adversaries. Furthermore, the Directive established DARPA as an agency of DoD under
the direction, authority, and control of the Under Secretary of Defense for Acquisition,
Technology, and Logistics, and the Director, Defense Research and Engineering.1


Broad Agency Announcements and Contracts Reviewed
DARPA personnel provided a list consisting of 84 contracts awarded from 29 BAAs,
with a value including options of about $649.1 million. Our scope included contracts
awarded by DARPA from BAAs issued by DARPA published in March 2011 through
September 30, 2012. We selected a nonstatistical sample of 36 contracts awarded from
9 BAAs, with a total contract value at award including options of about $426.4 million.
We selected a sample including a mix of contracts with BAAs issued at different times,
different contract values, and different contract types. Within the contract selection,
DARPA personnel issued 32 cost-reimbursement type contracts, valued at about
$414.1 million at award including options, and 4 firm-fixed-price (FFP) contracts, valued
at about $12.3 million at award including options. See Appendix B for a table of the
contracts reviewed.

	1	
      DoD Directive 5134.10 “Defense Advanced Research Projects Agency (DARPA),” issued May 7, 2013, updates the title for
      the Director, Defense Research and Engineering, to the Assistant Secretary of Defense for Research and Engineering.




                                                                                                                             DODIG-2013-126 │ 1
Introduction



                 Criteria, Guidance, and Processes Related to Broad
                 Agency Announcements
                 DARPA internal policy provides guidance supplemental to the Federal Acquisition
                 Regulation (FAR) that describes the processes and procedures for the issuance of a
                 BAA for soliciting proposals, evaluating and selecting proposals received in response
                 to BAAs, and documenting the results of their review. DARPA Instruction No. 20,
                 “Soliciting, Evaluating, and Selecting Proposals under Broad Agency Announcements and
                 Research Announcements,” February 10, 2011, (DI No. 20) authorizes the issuance of the
                 “DARPA Guide to Broad Agency Announcements and Research Announcements (RAs),”
                 February 2011 (DARPA Guide to BAAs and RAs). The DARPA Guide to BAAs and RAs
                 implements the processes and procedures established under DI No. 20, including how
                 to prepare and process a BAA and how to evaluate proposals received in response
                 to BAAs for potential contract award(s).


                 Broad Agency Announcement Criteria and Guidance
                 FAR 35.016, “Broad Agency Announcement,” describes the procedures for the use of
                 BAAs through peer or scientific reviews. FAR 35.016(a) “General,” explains that BAAs are:

                            for the acquisition of basic and applied research and that part of
                            development not related to the development of a specific system or
                            hardware procurement. BAA’s may be used by agencies to fulfill their
                            requirements for scientific study and experimentation directed toward
                            advancing the state-of-the-art or increasing knowledge or understanding
                            rather than focusing on a specific system or hardware solution. The BAA
                            technique shall only be used when meaningful proposals with varying
                            technical/scientific approaches can be reasonably anticipated.


                 An element of FAR 35.016(b)(2) requires that the BAAs describe the method of
                 evaluation for selecting the proposals. See Appendix C for a discussion of BAAs.

                 DARPA Contracts Management Office (CMO) personnel primarily announce research
                 and development opportunities through two types of solicitation methods: BAAs or
                 RAs, and Requests for Proposal. CMO personnel advertised most of the research and
                 development opportunities through BAAs.          After the CMO personnel publicize the
                 BAAs, proposers submit their proposals to the DARPA technical office personnel who
                 begin evaluating and selecting proposals. (See the Figure on page 4 for a flowchart of
                 the process for awarding contracts from broad agency announcements, specifically
                 boxes 1 through 4 for BAA related steps.)




2 │ DODIG-2013-126
                                                                                            Introduction



Process for Awarding Contracts from Broad Agency
Announcements
DARPA personnel awarded contracts from BAAs using a scientific review process
method of evaluation to determine which proposal(s) should receive funding.
For DARPA’s scientific review process, personnel use the evaluation criteria detailed
in the BAA as the basis for all scientific reviews. The DARPA Guide for BAAs and RAs
requires DARPA technical office personnel to include three mandatory evaluation
criteria in each BAA.    Technical office personnel can include, at their discretion,
additional evaluation criteria in each BAA. Using the evaluation criteria detailed in the
BAA, the reviewers evaluate the proposal(s) to make a determination of the proposal’s
selectability (selectable or non-selectable).   Each reviewer documents his or her
evaluation and proposal selectability determination within an evaluation report for
each proposal.    The program manager can consult with subject matter experts.
Reviewers and subject matter experts may include personnel from outside of DARPA;
however, reviewers must be Government personnel. (See the Figure on page 4 Box 5)

The program manager reviews the proposal, all reviewer evaluation reports, and
any subject matter expert worksheets and determines which proposal(s) best meet
the BAA program objectives. DARPA hires program managers from various research
and development communities to pursue its research.             The program manager
recommends the proposal(s) for funding to the Scientific Review Official (SRO) within a
Program Manager Summary Sheet. (See the Figure on page 4 Boxes 6 and 7) The program
manager compiles a recommendation package including all reviewer evaluation reports,
any subject matter expert worksheets, and the Program Manager Summary Sheet
and forwards this package to the SRO for his or her concurrence.

The SRO reviews the recommendation package documents to ensure the program
manager adequately justified and documented the rationale for selecting proposal(s)
for award.    The SRO signs the Program Manager Summary Sheet to indicate
concurrence with the program manager’s selection. Then the SRO signs the ARPA
Order Procurement Guidance to show final concurrence with funding the selected
proposal(s) and indicating that funds are available for the effort.      The SRO then
provides the proposal, recommendation package, ARPA Order Procurement Guidance,
and other necessary documents to the contracting officer to begin contract negotiation
for a potential contract award. (See the Figure on page 4 Boxes 8 through 10)




                                                                                        DODIG-2013-126 │ 3
Introduction



                 Figure. Flowchart of Process for Awarding Contracts from Broad Agency Announcements


                                  1                                                    6
                       Program Manager Writes                              Program Manager Reviews
                          the Broad Agency                                Proposal, Evaluation Reports,
                         Announcement (BAA)                                  and Any Subject Matter
                                                                               Expert Worksheets




                                                                                       7
                                  2                                       Program Manager Completes
                      Review Team is Established                              a Program Manager
                        in the Scientific Review                           Summary Sheet Providing a
                             Memorandum                                   Recommendation for Funding




                                                                                       8
                                                                            Scientific Review Official
                                                                               (SRO) Reviews the
                                  3                                        Recommendation Package
                        BAA is Reviewed and                                  and Signs the Program
                       Approved for Publication                            Manager Summary Sheet
                                                                            if He/She Concurs With
                                                                                Recommendation




                                  4                                                    9
                       BAA is Publicized by the                             SRO Signs the Advanced
                     Contracts Management Office                           Research Projects Agency
                                                                          Order Procurement Guidance
                                                                           to Provide Funding for the
                                                                               Selected Proposal




                                  5                                                   10
                          Reviewers Complete                                SRO Provides Necessary
                         Evaluation Reports on                            Documents to the Contracting
                       Proposals Received and if                            Officer to Begin Contract
                      Requested, Subject Matter                                    Negotiation
                     Experts Review the Proposals




4 │ DODIG-2013-126
                                                                                                 Introduction



Cost-Reimbursement Interim Rule
Public Law 110-417, “Duncan Hunter National Defense Authorization Act for
Fiscal Year 2009,” section 864, “Regulations on the Use of Cost-Reimbursement
Contracts,” October 14, 2008, requires FAR revisions regarding the documentation of
decisions and approvals necessary before issuance of other than FFP contracts. Federal
Acquisition Circular 2005-50, issued March 16, 2011, implemented the required
revisions on an interim basis.      The cost-reimbursement interim rule was effective
immediately. Federal Acquisition Circular 2005-50 amended portions of FAR Part 7,
“Acquisition Planning,” FAR Part 16, “Types of Contracts,” and FAR Part 42, “Contract
Administration and Audit Services.” The final rule was published in the Federal Register
on March 2, 2012, without significant changes. See Appendix D for a copy of the
cost-reimbursement interim rule.

The cost-reimbursement interim rule requires that other than FFP contracts include
support for the contract type selected and approval at least one level above the
contracting officer in the acquisition planning documentation or elsewhere in the file
if a formal acquisition plan was not required. FAR 16.103(d)(1)(i) and (ii) states that
the contract file must support why the particular contract type was selected, including
why the selected type must be used to meet the agency need, and a discussion of the
Government’s additional risks and the burden to manage the selected type. The interim
rule did not change the requirement for FFP research and development contracts
to include support for the contract type selected in the contract file; however,
FFP contracts were exempt from other requirements of the rule. FAR 16.103(d)(1)(iv)
applies only to “other than a firm-fixed price contract” and states at a minimum,
documentation should include:

         •	 an analysis of why the selected contract type is appropriate,

         •	 rationale detailing the particular circumstances and reasoning essential to
            support the selected contract type, and

         •	 a discussion of the actions planned to minimize the use of other than FFP
            contracts and to transition to FFP contracts for future acquisitions for the
            same requirement.

We considered the final requirement as adequately documented if the contract file
included an explanation of the potential to transition or a justification as to why the
particular effort will never be able to transition to a FFP contract. In addition, contracting
personnel must document that adequate resources are available to manage the




                                                                                             DODIG-2013-126 │ 5
Introduction



                 contract type selected for cost-reimbursement type contracts.       We considered the
                 assignment of a contracting officer’s representative and completion of appropriate
                 training by the representative before contract award as documenting that adequate
                 resources were available. Finally, contracting personnel were required to determine
                 the adequacy of the contractor’s accounting system during the entire period of
                 performance for cost-reimbursement contracts.      We reviewed only the contracting
                 officer’s determination of the contractor’s accounting system before the contract award.
                 If the contracting officer determines the accounting system is inadequate, they should
                 not issue a cost-reimbursement contract.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
                 July 29, 2010, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating
                 as intended and to evaluate the effectiveness of the controls. We identified internal
                 control weaknesses for implementing DARPA policy requirements when completing
                 the scientific review process. Specifically, DARPA technical office personnel did not
                 follow the procedures to verify the adequacy of evaluation reports and Program
                 Manager Summary Sheets or that the SRO or delegate SRO signed the ARPA Order
                 Procurement Guidance document approving contract funding.

                 Additionally, we identified internal control weaknesses for implementing the changes
                 required by the interim rule regarding cost-reimbursement type contracts. Specifically,
                 DARPA CMO personnel did not have procedures to document the potential of
                 cost-reimbursement contracts to transition to FFP contracts, perform the required
                 approval of the contract type at least one level above the contracting officer, and
                 verify that the contractor’s accounting system was adequate to permit timely
                 development of cost data before agreeing to a contract type other than FFP. We will
                 provide a copy of the report to the senior official in charge of internal controls in
                 the Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
                 and in the Defense Advanced Research Projects Agency.




6 │ DODIG-2013-126
                                                                                                            Finding



Finding
Better Controls and Practices Needed When Evaluating
Broad Agency Announcement Proposals
Of the 36 contracts reviewed, valued at award including options of about $426.4 million,
DARPA personnel did not consistently adhere to scientific review process and
FAR requirements before awarding contracts from BAAs for 352 contracts, valued at
award including options of about $424.6 million.                     Specifically, personnel awarded
contracts from BAAs without fully implementing the scientific review process by not:

              •	 preparing reviewer evaluation reports that contained detailed narrative or
                 program manager summary sheets that adequately supported proposal
                 selectability determinations for 28 of 36 contracts because evaluation
                 reviewers and DARPA technical office personnel did not follow internal
                 policies; and

              •	 obtaining approvals for DARPA funding documents for 12 of 36 contracts
                 because technical office personnel did not follow internal policies.

In addition, DARPA CMO personnel did not fully implement FAR requirements
supporting the contract type selection by not:

              •	 providing all required support for the contract type selection for 32 of
                 36 contracts because CMO personnel assumed the requirements did
                 not apply to research and development contracts;

              •	 obtaining approvals for the contract type at least one level above the
                 contracting officer for all 32 cost-reimbursement contracts because CMO
                 personnel assumed the requirement did not apply since they did not complete
                 acquisition plans; and

              •	 determining the adequacy of the contractor’s accounting system for 13 of
                 32 cost-reimbursement contracts because CMO personnel had inadequate
                 or no support for the adequacy of the contractors’ accounting systems.

Although we did not identify any contracts that DARPA personnel should not have
awarded, DARPA may not be able to justify that technical office personnel adequately
substantiated proposal selections.                    In addition, CMO personnel increased DARPA’s
contracting risks, such as the increased risk of the Government paying unnecessary
costs, when issuing cost-reimbursement contracts.

	2	
      A contract may have more than one deficiency.


                                                                                                   DODIG-2013-126 │ 7
Finding



                 Implementation of the Scientific Review Process
                 Needs Improvement
                 DARPA technical office personnel did not fully implement the scientific review process
                 for 31 of 36 contracts,3 with a total contract value including options at award of about
                 $343.3 million, because evaluation reviewers and program managers did not follow
                 internal policies for completing detailed evaluation reports and program manager
                 summaries, as required.                   DARPA personnel complied with internal policies when
                 establishing the scientific review team. In addition, evaluation reviewers evaluated
                 the proposals against the criteria established in the BAA; however, they did not
                 prepare evaluation reports that contained detailed narrative. Program managers did not
                 prepare summaries that adequately supported proposal selectability determinations,
                 as required by the DARPA Guide to BAAs and RAs, for 28 of 36 contracts. Additionally,
                 DARPA technical office personnel did not obtain appropriate approvals for DARPA
                 funding documents for 12 of 36 contracts because they did not follow internal
                 policies requiring the SRO to approve the ARPA Order Procurement Guidance funding
                 documents. As a result, DARPA may not be able to justify that technical office personnel
                 adequately substantiated proposal selections. See Appendix E for deficiencies identified
                 in contracts reviewed.


                 Adequate Compliance With Internal Policies When
                 Establishing the Scientific Review Team
                 DARPA technical office personnel complied with scientific review process requirements
                 when establishing the scientific review team in accordance with DARPA policy. For all
                 36 contracts reviewed, DARPA representatives assigned different personnel to fulfill
                 DARPA program manager and SRO positions. Those program managers and SROs
                 appropriately signed corresponding scientific review memorandums, with only a few
                 exceptions. In addition, DARPA personnel assigned a program manager and at least
                 two additional evaluation reviewers for each proposal. Personnel correctly identified
                 evaluation reviewers in the scientific review memorandums, and these reviewers
                 prepared evaluation reports, except in a few cases.                                 When subject matter experts
                 reviewed the proposals, personnel also appropriately identified them in the scientific
                 review memorandum, with one exception. We did not consider these minor exceptions
                 identified to be systemic problems in the scope of our review; therefore, we are not
                 making a recommendation.


                 	3	
                       We counted a contract as deficient only once when the evaluation reports did not contain detailed, substantive narrative
                       to support proposal selectability determinations; when program manager summaries were inadequate; when funding
                       approvals were inadequate; or any combination of the three.




8 │ DODIG-2013-126
                                                                                                              Finding



Lacking Support for Selectability Determinations
Evaluation reviewers and program managers prepared reports and summary sheets,
respectively that lacked the required support for selectability determinations.
Specifically, evaluation reviewers did not prepare detailed narratives for at least one
of the evaluation criteria in at least one reviewer’s evaluation report. In addition, one
program manager did not prepare Program Manager Summary Sheets to adequately
support funding recommendations.


Completion of Evaluation Reports Must Be Consistent
Evaluation reviewers prepared and submitted evaluation reports to DARPA program
managers that did not provide a detailed, substantive narrative for at least one of the
evaluation criteria in at least one reviewer’s evaluation report for 28 of the 36 contracts.
This occurred because evaluation reviewers did not follow internal policies requiring
evaluation reviewers to complete detailed evaluation reports, as required by the
DARPA Guide to BAAs and RAs. The DARPA Guide to BAAs and RAs states that all
scientific reviews are based on evaluation criteria detailed in the published BAA,
and the results of each scientific review must be documented in an evaluation report.
Reviewers should include in the evaluation report detailed, substantive narrative with
a description of his or her findings relative to each published evaluation criteria that
ultimately supports the reviewer’s proposal selectability determination. The guidance
further details that “adjectival descriptions” such as “Good” or “Excellent,” without
further detailed narrative elaboration, are not sufficient for these reviews. Evaluation
reviewers included “adjectival descriptions,” such as “Good” or “Excellent,” in the
evaluation reports and did not address each of the evaluation criteria. See Table 1 for
details of DARPA contracts containing evaluation report deficiencies.

Table 1. Contracts With Evaluation Report Deficiencies
                    Deficiency Identified                      Total Number of Contracts Affected*
 Evaluation report contained non-detailed responses                            21
 Evaluation report did not include a response for some of                      14
 the evaluation criteria
 Evaluation report contained only “adjectival descriptions,”                   9
 such as “Good” or “Excellent”

*A contract may have more than one deficiency.

For example, one evaluation reviewer for four contracts issued from DARPA-BAA-11-40
consistently provided evaluation reports that lacked detailed, substantive narrative.
Specifically, the reviewer stated (or included similar language) the “cost is realistic




                                                                                                     DODIG-2013-126 │ 9
Finding



                 for the work proposed” for the “Cost Realism” evaluation criteria for three of the
                 four contracts; however, the reviewer did not provide supporting information as to
                 why the proposed costs were realistic. Additionally, the same evaluation reviewer
                 also provided evaluations that lacked detailed, substantive narrative for the “Potential
                 Contribution and Relevance to the DARPA Mission” and the “Plans and Capability to
                 Accomplish Technology Transition” evaluation criteria.

                         •	 For the “Potential Contribution and Relevance to the DARPA Mission”
                            evaluation criteria, the evaluation reviewer consistently stated (or included
                            similar language), “This effort is extremely relevant and will make a
                            significant contribution to the DARPA mission.” However, the reviewer did
                            not provide supporting information as to how the effort was relevant and
                            would contribute to the DARPA mission.

                         •	 For the “Plans and Capability to Accomplish Technology Transition” evaluation
                            criteria, the evaluation reviewer stated (or included similar language),
                            “Proposers have plans and a proven track record that points to successful
                            transition of the technology they are developing.” However, the reviewer did
                            not provide supporting information as to what specific plans the proposers
                            have that will successfully transition the developing technology.

                 In another instance, three evaluation reviewers did not provide a response for the
                 “Plans and Capability to Accomplish Technology Transition” evaluation criteria for
                 five contracts. DARPA personnel assigned the same reviewers to the five proposals
                 that resulted in five contracts for DARPA-BAA-12-07. The program manager specified
                 in DARPA-BAA-12-07 the five evaluation criteria that evaluation reviewers must
                 review for each proposal, but the reviewers only responded to four. The Director,
                 DARPA should establish controls to verify that technical office personnel meet
                 requirements for providing detailed, substantive narratives in evaluation reports
                 that adequately support proposal selectability determinations, requesting revisions
                 to evaluation reports when necessary, and conducting training to reemphasize this
                 internal requirement.


                 Non-Selectable Proposal Selectability Determinations
                 Each of the evaluation reviewers considered the proposals selectable for 29 of the
                 36 contracts. For seven contracts, at least one evaluation reviewer documented in
                 his or her evaluation report that they considered the proposal as non-selectable.
                 The DARPA Guide to BAAs and RAs states the program manager may disagree with
                 the rationale provided in an evaluation report; however, he or she must specifically



10 │ DODIG-2013-126
                                                                                                Finding



document the rationale for overriding the reviewer’s selectability determination in the
Program Manager Summary Sheet. The applicable program manager for each of the
seven contracts did not document his or her rationale for overriding the reviewer’s
determination in the Program Manager Summary Sheet. For six of the seven contracts,
the majority of the evaluation reviewers documented in their evaluation reports that
they considered the proposal as “selectable.”

For contract HR0011-12-C-0053, two of the three evaluation reviewers determined
the proposal as “non-selectable” for one contract. The program manager as the third
reviewer overrode the other reviewers’ selectability determinations and recommended
the proposal for funding. The program manager prepared a Scientific Review Outbrief
package showing after a Scientific Review Board meeting, the board considered the
proposal as highly competitive.    In addition, the board suggested four approaches
recommending different sets of proposals that together would meet the goal of the BAA,
and in each of the four options, they recommended the proposal for funding as part of
each package. Since only one contract had a majority of “non-selectable” determinations
and that contract had additional support for selection of that proposal, we are not
making a recommendation.


Program Manager Summaries Included Inadequate Rationale
DARPA program managers did not provide adequate rationale within their program
manager summaries to support funding recommendations for 8 of 36 contracts.
This occurred because program managers did not follow internal policies requiring
them to complete detailed Program Manager Summary Sheets, as required by the
DARPA Guide to BAAs and RAs. The DARPA Guide to BAAs and RAs provides a sample
Program Manager Summary Sheet for DARPA program managers to follow. A DARPA
program manager prepared inadequate Program Manager Summary Sheets for eight
contracts issued from DARPA-BAA-11-54. Although the program manager followed
the general format outlined in DARPA’s internal guidance, he did not provide adequate
rationale to support proposal selectability and funding
recommendations.     Each of the eight Program Manager
                                                                   Each of the
Summary Sheets contained the exact same rationale, and
                                                                 eight Program
only the contractor’s name changed. Specifically, each         Manager Summary
Program Manager Summary Sheet stated, “Rationale              Sheets contained the
                                                              exact same rationale,
for this decision is as follows: [Contractor’s name] has
                                                                  and only the
proposed work that is of value to the DARPA mission.           contractor’s name
[Contractor’s name] has demonstrated they have the                  changed.
subject matter expertise and resources to successfully




                                                                                      DODIG-2013-126 │ 11
Finding



                 complete work proposed.”       However, the program manager did not provide any
                 other supporting information as to how the proposed work would provide value to
                 DARPA’s mission and what resources the contractor had to successfully complete the
                 proposed work.

                 During the exit conference on March 20, 2013, the DARPA Special Assistant, CMO,
                 stated that DARPA was in the process of developing agency-wide training for the
                 scientific review process.      As of March 20, 2013, DARPA personnel provided
                 division-specific scientific review training, which did not provide a standardized
                 reviewers’ process.    The Director, DARPA, should establish controls to verify that
                 technical office personnel meet requirements for providing Program Manager Summary
                 Sheets that adequately support proposal selectability determinations, requesting
                 revisions to Program Manager Summary Sheets when support is not adequate, and
                 conducting training to reemphasize this internal requirement.


                 Inappropriate Funding Document Approvals
                 DARPA technical office personnel did not obtain appropriate funding document
                 approvals for 12 of the 36 contracts because they did not follow internal policies
                 requiring the SRO or delegate SRO to approve ARPA Order Procurement Guidance
                 funding documents. The DARPA Guide to BAAs and RAs states that the SRO (or delegate
                 SRO) reviews the recommendation package to ensure that the program manager has
                 adequately justified and documented a rationale for selecting proposals for award.
                 The SRO must document in writing the substantive rationale supporting any decision
                 other than a simple concurrence with the program manager’s recommendation.
                 Additionally, the SRO indicates his or her final concurrence with funding the selected
                 proposal(s) by providing his or her signature on the ARPA Order Procurement
                 Guidance for each proposal, indicating that funds are available for the effort.

                 For the 12 contracts, the appropriate SRO approved Program Manager Summary
                 Sheets. However, of those contracts, the ARPA Order Procurement Guidance funding
                 documentation for 11 contracts were signed by a DARPA representative no longer
                 serving as the proposal’s SRO, and 1 contract was signed by the “Office Director”
                 instead of the SRO. The Director, DARPA, should reemphasize the internal requirement
                 requiring Scientific Review Officials and Delegate Scientific Review Officials to approve
                 the Advanced Research Projects Agency Order Procurement Guidance document for
                 contract funding.




12 │ DODIG-2013-126
                                                                                                 Finding



Compliance With the Cost-Reimbursement Interim Rule
Was Inadequate
DARPA CMO personnel did not fully implement FAR requirements related to the
cost-reimbursement interim rule for 32 of 36 contracts, with a total contract value at
award with options of about $414.1 million, because personnel:

        •	 assumed the contract type selection support requirements did not apply to
           research and development contracts;

        •	 assumed the requirement to obtain approvals for the contract type at least
           one level above the contracting officer did not apply because they did not
           complete acquisition plans for the 32 cost-reimbursement type contracts; and

        •	 provided inadequate or no support for the adequacy of the contractors’
           accounting systems for 13 of the 32 cost-reimbursement type contracts.

DARPA CMO personnel issued 4 of the 36 contracts as FFP. FFP contracts are exempt
from some of the cost-reimbursement criteria. We did not identify any problems with the
applicable criteria for the four FFP contracts. In addition, CMO personnel appropriately
justified the type of contract selected for all 36 contracts and appointed contracting
officer’s representatives before contract award for 30 of the 32 cost-reimbursement
type contracts.


Additional Required Support Needed for Contract
Type Selections
DARPA CMO personnel appropriately justified the use of a cost-reimbursement type
or FFP research and development contract; however, they did not provide all the
required support within the contract file when selecting the contract type, as required
by FAR 16.103, “Negotiating contract types,” for 32 of the 36 contracts. CMO personnel
included documentation in the contract file for all 36 contracts addressing why the
contract type selected met the agency need and the additional risks and burden on the
Government to manage the contract type selected. We determined that the contracting
officer’s rationale within the price negotiation memorandum and the documentation
showing the steps taken to mitigate the risks of a cost-type contract were acceptable
to fulfill this requirement.   Furthermore, for all 32 cost-reimbursement contracts,
CMO personnel included in the contract file an analysis documenting why the use of
other than a FFP contract was appropriate and “rationale that detailed the particular
facts and circumstances . . . and associated reasoning essential to support the contract
type selected,” as required by FAR 16.103(d)(1)(iv)(A) and (B).



                                                                                       DODIG-2013-126 │ 13
Finding



                 Although DARPA CMO personnel adequately supported the cost-reimbursement
                 contract type selections, personnel did not provide a discussion of the actions planned
                 to minimize the use of other than FFP contracts on future acquisitions for the same
                 requirement and to transition to FFP contracts to the maximum extent practicable, as
                 required by FAR 16.103(d)(1)(iv)(D).     During a discussion with DARPA personnel,
                 the Special Assistant, CMO, explained that DARPA determined this was not applicable
                 because its efforts are during the very beginning stages of research, otherwise known
                 as Science and Technology. DARPA is advancing the state of the art, not procuring
                 the same thing repeatedly. In addition, personnel explained that the work DARPA
                 performs is limited in scope and does not go into the development phase within
                 DARPA, so the work would never transition into a FFP contract. DARPA transitions
                 promising projects to development outside of DARPA.

                 The Federal Register, volume 77 number 42, March 2, 2012,
                 discussed the comments obtained in response to the
                                                                                    Exemptions
                 cost-reimbursement interim rule and made the                     for research and
                 rule into a final rule at that time. One commenter           development contracts
                                                                               do not exist under the
                 recommended that the final rule exempt research
                                                                              Duncan Hunter National
                 and development contracts from the requirements.              Defense Authorization
                 However, the response explained exemptions for                   Act for FY 2009.
                 research and development contracts do not exist under
                 the Duncan Hunter National Defense Authorization Act for
                 FY 2009.    The response also stated that research and development contracts are
                 considered high-risk contracts. We consider the requirement adequately addressed if
                 the contract file included an explanation of the plans to transition future acquisitions
                 to FFP or an explanation of why the particular effort cannot transition in the future to
                 FFP. The Director, DARPA, should establish procedures requiring CMO personnel to
                 provide written support within the contract file explaining either the plans to minimize
                 the use of other than firm-fixed-price contracts on future acquisitions for the same
                 requirement or why the particular effort cannot transition in the future within DARPA
                 to firm-fixed-price contracts, in accordance with FAR 16.103(d)(1)(iv)(D).


                 Proper Approval Needed for Contract Type Selection
                 DARPA CMO personnel did not obtain the required approval of the contract type at least
                 one level above the contracting officer for all 32 cost-reimbursement type contracts
                 as required by FAR 16.301-3(a)(2). FAR 16.301-3(a)(2) requires a written acquisition
                 plan to be approved and signed at least one level above the contracting officer.




14 │ DODIG-2013-126
                                                                                                  Finding



FAR 16.301-2(b) states the contracting officer must document his or her rationale for
the contract type selection in the written acquisition plan and have that plan approved
at least one level above the contracting officer. The contracting officer must document
the rationale in the contract file if a written acquisition plan is not required.

Defense Federal Acquisition Regulation Supplement 207.103(d)(i)(A) requires
written acquisition plans for acquisitions for development, as defined in FAR 35.001,
“Definitions.” During a meeting with the audit team, the Special Assistant, CMO, stated
that DARPA does not prepare acquisition plans because DARPA’s typical research and
development efforts do not meet the definition of development; therefore, acquisition
plans are not required for the majority of DARPA’s Science and Technology efforts.
Then, the Director, CMO, explained that if a contract is greater than $5 million, the
Director, CMO, the Deputy Director, or a Division Director (if the contracting officer is
not a Division Director) will review the contract file and provide an approval that the
contract file is adequate.

DARPA CMO personnel included an approval printout within the contract file for
17 of the cost-reimbursement type contracts as shown in Table 2. This approval
printout showed that the Division Director; Deputy Director, CMO; or Director, CMO
reviewed the contract file before approving the award of the contract; however,
the printout did not provide support that the appropriate personnel specifically
reviewed the selection of the contract type.

Table 2. Contract Files That Provided The Approval Printout
              HR0011-11-C-0142                                HR0011-12-C-0092
              HR0011-12-C-0014                                HR0011-12-C-0093
              HR0011-12-C-0015                                HR0011-12-C-0095
              HR0011-12-C-0016                                HR0011-12-C-0074
              HR0011-12-C-0017                                HR0011-12-C-0086
              HR0011-11-C-0138                                HR0011-12-C-0117
              HR0011-12-C-0039                                HR0011-12-C-0123
              HR0011-12-C-0052                                HR0011-13-C-0005
              HR0011-12-C-0083


“Statement of CMO Procedure Number 10-01,” effective September 1, 2010, states
all contract actions greater than or equal to $5 million require a higher-level review
within the CMO. The Division Director, at his or her discretion, can review contract
actions below this threshold. The policy explains the appropriate Division Director
should complete reviews for contract actions above the threshold. If the contracting



                                                                                        DODIG-2013-126 │ 15
Finding



                  officer is the Division Director, the Director, CMO or Deputy Director, CMO shall review
                  the contract action. The contract file review for the contracts at or above $5 million
                  does not satisfy the cost-reimbursement interim rule and its final rule requirement,
                  since the interim rule does not have any dollar thresholds. The Director, DARPA,
                  should establish procedures requiring contracting officers to obtain approval of the
                  cost-reimbursement contract type at least one level above the contracting officer.


                  Adequacy of the Contractors’ Accounting Systems
                  Not Determined
                  DARPA CMO personnel did not verify that the contractors’
                  accounting systems were adequate to permit timely                        DARPA
                                                                                      CMO personnel
                  development of cost data before agreeing to a contract
                                                                                   assumed they would
                  type other than FFP for 13 of the 32 cost-reimbursement           not need to question
                  type contracts, as required by FAR 16.104(i), “Adequacy of      the accounting systems
                  the contractor’s accounting system.” During discussions             of large defense
                                                                                        contractors.
                  with the audit team, DARPA CMO personnel assumed they
                  would not need to question the accounting systems of large
                  defense contractors. However, the Special Assistant, CMO, stated
                  that CMO personnel are expected to review the adequacy of the accounting system.

                  DARPA CMO personnel did not include adequate information in the contract files
                  supporting the adequacy of the contractors’ accounting systems for 13 contracts.
                  FAR 15.406-3(a)(4) states that the price negotiation memorandum shall include
                  “the current status of any contractor systems ([for example], purchasing, estimating,
                  accounting, and compensation) to the extent they affected and were considered in the
                  negotiation.” Although the FAR states that the price negotiation memorandum should
                  include this information, we considered the contracting officer to have verified the
                  adequacy of the accounting system if the contract file included additional support.
                  Additional support included documentation such as reports from the Defense Contract
                  Audit Agency or the Defense Contract Management Agency that stated the accounting
                  system was adequate or provided an adequate description in the contract file of the
                  determination that the accounting system was adequate. DARPA CMO personnel did
                  not provide any information within the Price Negotiation Memorandum about the
                  adequacy of the contractors’ accounting systems for 6 of the 13 contracts.           CMO
                  personnel stated in the Price Negotiation Memorandums for 7 of the 13 contracts that
                  the contractors’ accounting systems were adequate; however, CMO personnel did not
                  include support in the Price Negotiation Memorandum or supporting documentation
                  in the contract file to substantiate the statement.




16 │ DODIG-2013-126
                                                                                                   Finding



For example, for contracts HR0011-12-C-0058 and HR0011-12-C-0086, DARPA CMO
personnel stated in documentation that they relied on disclosure statements from large
federal contractors and certification reports from the contractor. In addition, DARPA
personnel stated, “The presence of [Defense Contract Management Agency Forward
Pricing Rate Recommendations] in and of itself suggests that the contractor in question
has an approved accounting system.” However, the contracting officer did not document
the adequacy of the accounting system. The Director, DARPA, should reemphasize to
contracting officers the FAR requirement to appropriately complete and document the
determination of the adequacy of the contractor’s accounting system in the contract file.


Consistent Appointment of Contracting Officer’s
Representative
DARPA contracting officers appointed a contracting officer’s representative before
contract award, with a few exceptions. The contracting officers appointed contracting
officer’s representatives before contract award for 30 of 32 cost-reimbursement
contracts.    One contracting officer appointed a contracting officer’s representative
6 days after awarding contract HR0011-12-C-0019, although the contracting officer’s
representative training certification was dated before the contracting officer awarded
the contract. Another contracting officer appointed a contracting officer’s representative
1 month after awarding contract HR0011-12-C-0048. In this case, the contracting
officer’s representative completed training 3 days before being appointed, which was
still after the award of the contract. We did not consider this a systemic problem in the
scope of our review; therefore, we are not making a recommendation.


Recommendations, Management Comments, and
Our Response
We recommend that the Director, Defense Advanced Research Projects Agency:

      1.	    Establish controls to verify that technical office personnel meet internal
             requirements for providing:

             a.	   Detailed, substantive narratives in evaluation reports that
                   adequately   support    proposal     selectability   determinations,
                   requesting revisions to evaluation reports when necessary, and
                   conducting training to reemphasize this internal requirement.

             b.	   Program Manager Summary Sheets that adequately support
                   proposal selectability determinations, requesting revisions to
                   Program Manager Summary Sheets when support is not adequate,
                   and conducting training to reemphasize this internal requirement.

                                                                                         DODIG-2013-126 │ 17
Finding



                 Acting Director, Defense Advanced Research Projects
                 Agency Comments
                 The Acting Director, DARPA, responding for the Director, DARPA, agreed, stating that
                 DARPA would expand policies and procedures and provide additional training to
                 members of the Scientific Review Team at key points in the scientific review process.


                 Our Response
                 Comments from the Acting Director, DARPA, were responsive and met the intent of the
                 recommendations. No further comments were required.

                       2.	   Reemphasize the internal requirement that Scientific Review Officials
                             and Delegate Scientific Review Officials are required to approve the
                             Advanced Research Projects Agency Order Procurement Guidance
                             document for contract funding.

                 Acting Director, Defense Advanced Research Projects
                 Agency Comments
                 The Acting Director, DARPA, agreed with the intent of the recommendation. The Acting
                 Director stated that DARPA recently transitioned to the Defense Agencies Initiative
                 financial system that uses a Military Interdepartmental Purchase Request. The Acting
                 Director stated that DARPA would improve internal controls relative to approval of
                 Military Interdepartmental Purchase Requests.


                 Our Response
                 Comments from the Acting Director, DARPA, were responsive and met the intent of the
                 recommendation. No further comments were required.

                       3.	   Establish procedures requiring Contracts Management Office personnel
                             to provide written support within the contract file explaining either
                             plans to minimize the use of other than firm-fixed-price contracts on
                             future acquisitions for the same requirement or why the particular effort
                             cannot transition in the future within the Defense Advanced Research
                             Projects Agency to firm-fixed-price contracts, in accordance with the
                             Federal Acquisition Regulation 16.103(d)(1)(iv)(D).

                 Acting Director, Defense Advanced Research Projects
                 Agency Comments
                 The Acting Director, DARPA, agreed with the intent of the recommendation. The Acting
                 Director stated that DARPA would establish a written procedure that would provide


18 │ DODIG-2013-126
                                                                                                       Finding



the contracting officer with the option to include a memorandum for record in the
contract file stating that no opportunity to transition to a firm-fixed-price contract existed.


Our Response
Comments from the Acting Director, DARPA, were responsive and met the intent of the
recommendation. No further comments were required.

      4.	   Establish    procedures      requiring     contracting     officers   to   obtain
            approval of the cost-reimbursement contract type at least one level
            above the contracting officer, as required by the Federal Acquisition
            Regulation 16.301-3(a)(2).

Acting Director, Defense Advanced Research Projects Agency
Comments
The Acting Director, DARPA, agreed, stating that DARPA would establish procedures
requiring contracting officers to obtain approval of cost-reimbursement contracts at
least one level above the contracting officer.


Our Response
Comments from the Acting Director, DARPA, were responsive and met the intent of the
recommendation. No further comments were required.

      5.	   Reemphasize       to   contracting      officers   the    Federal     Acquisition
            Regulation requirement to appropriately complete and document the
            determination of the adequacy of the contractor’s accounting
            system in the contract file, as required by the Federal Acquisition
            Regulation 16.104(i), “Adequacy of the contractor’s accounting system.”

Acting Director, Defense Advanced Research Projects Agency
Comments
The Acting Director, DARPA, agreed. The Acting Director stated that DARPA would
reemphasize the requirement in internal procedures and include the requirement
for such documentation in a memorandum for record to be included in the official
contract file.


Our Response
Comments from the Acting Director, DARPA, were responsive and met the intent of the
recommendation. No further comments were required.



                                                                                             DODIG-2013-126 │ 19
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this performance audit from November 2012 through July 2013 in
                 accordance with generally accepted government auditing standards. Those standards
                 require that we plan and perform the audit to obtain sufficient, appropriate evidence
                 to provide a reasonable basis for our findings and conclusions based on our audit
                 objectives. We believe that the evidence obtained provides a reasonable basis for our
                 findings and conclusions based on our audit objectives.

                 We announced this audit in response to the termination of the “Audit of the Defense
                 Advanced Research Projects Agency’s Contracting Practices” because information was
                 outdated. Our scope included contracts awarded by the Defense Advanced Research
                 Projects Agency (DARPA) from broad agency announcements (BAAs) issued by DARPA
                 that were published in March 2011 through September 30, 2012, excluding classified
                 BAAs and contracts. We also excluded contracts awarded to educational institutions,
                 because they have a separate set of criteria to follow. Our objective was to determine
                 whether DARPA properly awarded contracts from BAAs.              Our review focused on
                 issuance of the BAAs, the selection of contracts through the scientific review process, and
                 support for the selection of contract type.

                 To determine compliance with the cost-reimbursement interim rule and its final rule,
                 our methodology when reviewing the contract files varied slightly from the specific
                 interim rules. In cases where the rule required documentation in the acquisition plan,
                 we expanded our review to the entire contract file because DARPA does not create
                 acquisition plans. In addition, the rule states that if a written acquisition plan is
                 not required, the documentation should still be included in the contract file.         We
                 determined whether contracting personnel determined that adequate resources
                 were available to monitor the award by determining whether contracting personnel
                 assigned a contracting officer’s representative to the contract before issuance. We
                 reviewed the assignment of a contracting officer’s representative and whether the
                 representative completed appropriate training before contract award, but we did
                 not determine whether the person assigned had an appropriate workload, was
                 appropriately geographically located to monitor the award, nor the adequacy of the
                 contracting officer’s representatives assigned. We determined whether the contracting
                 officer documented that the contractor’s accounting system was adequate at contract
                 award and not during the entire period of contract performance as required by the
                 cost-reimbursement interim rule. We reviewed the Price Negotiation Memorandum



20 │ DODIG-2013-126
                                                                                              Appendixes



and documentation within the contract file to determine whether the contracting
officer determined that the accounting system was adequate, and whether the
contracting officer provided an explanation on how he or she made the determination.
We accepted audit reports from the Defense Contract Audit Agency and the Defense
Contract Management Agency that discussed the adequacy of the accounting system
as evidence that the contracting officer verified that the contractor had an adequate
accounting system.


Universe and Sample Information
We requested that DARPA provide a list of contracts awarded from BAAs published
by DARPA in March 2011 through September 30, 2012, excluding classified BAAs and
contracts. We excluded classified BAAs and contracts because another DoD Office
of Inspector General Component had announced a project reviewing classified BAAs
and contracts at DARPA. DARPA provided a list consisting of 84 contracts awarded
from 29 BAAs, with a value including options of about $649.1 million. We excluded
16 contracts awarded to educational institutions, because they have a separate set
of criteria to follow. From the remaining list, we selected a nonstatistical sample of
36 contracts awarded from 9 BAAs, with a total contract value at award including
options of about $426.4 million. We selected a sample including a mix of contracts with
BAAs issued at different times, different contract values, and different contract types.
Within the contract selection, DARPA issued 32 cost-reimbursement type contracts,
valued at about $414.1 million at award including options, and 4 firm-fixed-price
contracts, valued at about $12.3 million at award including options.


Review of Documentation and Interviews
We evaluated documentation against applicable criteria including:

        •	 Federal Acquisition Regulation (FAR) Part 15, “Contracting by Negotiation”;

        •	 FAR Part 16, “Types of Contracts”;

        •	 FAR 35.016, “Broad Agency Announcement”;

        •	 DARPA Instruction No. 20, “Soliciting, Evaluating, and Selecting Proposals
           under Broad Agency Announcements and Research Announcements,”
           February 10, 2011; and

        •	 DARPA Guide to Broad Agency Announcements and Research Announcements
           (February 2011).




                                                                                         DODIG-2013-126 │ 21
Appendixes



                 We also evaluated documentation against applicable criteria in the FAR revisions
                 implemented by section 864 of the Duncan Hunter National Defense Authorization
                 Act for FY 2009 and included in the Interim Rule Federal Register, Volume 76
                 Number 51, “Proper Use and Management of Cost Reimbursement Contracts.” The
                 cost-reimbursement interim rule included revisions to:

                         •	 FAR Subpart 1.6, “Career Development, Contracting Authority, and
                            Responsibilities”;

                         •	 FAR 2.101, “Definitions”;

                         •	 FAR Subpart 7.1, “Acquisition Plans”;

                         •	 FAR Subpart 16.1, “Selecting Contract Types”;

                         •	 FAR 16.301, “General”; and

                         •	 FAR 42.302, “Contract administration functions.”

                 We reviewed documentation provided by DARPA from the contract files. The documents
                 reviewed included the BAAs, reviewer evaluation reports, program manager summaries,
                 contracts, price negotiation memorandums, Defense Contract Audit Agency and
                 Defense Contract Management Agency reports, contracting officer’s representative
                 designation letters, contracting officer’s representative training certificates, and other
                 documentation included in the contract file showing compliance with the criteria
                 we used. We held discussions with DARPA Contract Management Office personnel
                 at DARPA Headquarters in Arlington, Virginia, to discuss the BAAs and contracts
                 within our review.


                 Use of Computer-Processed Data
                 We did not rely on computer-processed data to perform this audit.


                 Use of Technical Assistance
                 We held discussions with personnel from the DoD Office of Inspector General’s
                 Quantitative Methods Division during our planning phase to determine the number
                 of BAAs and contracts that should be reviewed. The Quantitative Methods Division
                 determined that a nonstatistical sample was the best way to proceed and approved the
                 methodology used by the audit team to select the nonstatistical sample of 36 contracts
                 from 9 BAAs.




22 │ DODIG-2013-126
                                                                                        Appendixes



Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) issued
four reports discussing the Defense Advanced Research Projects Agency and the
Interim Rule for cost-reimbursement contracts. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/pubs/index.cfm.


DoD IG
Report No. DODIG-2013-120, “Army Needs Better Processes to Justify and Manage
Cost-Reimbursement Contracts,” August 23, 2013

Report No. DODIG-2013-106, “Defense Advanced Research Projects Agency Properly
Awarded Contracts for Disc-Rotor Research and Development,” July 19, 2013

Report No. DODIG-2013-059, “Air Force Needs Better Processes to Appropriately
Justify and Manage Cost-Reimbursable Contracts,” March 21, 2013

Report No. DODIG-2013-039, “Defense Advanced Research Project Agency’s Ethics
Program Met Federal Government Standards,” January 24, 2013




                                                                                   DODIG-2013-126 │ 23
Appendixes




Appendix B
Contracts Reviewed
                                  Contract                         Original Publication   Value of Contract at Award,
             Contract                                 BAA                                                               Contract Type
                                 Award Date                            Date of BAA            Including Options
  1     HR0011-11-C-0142         10/1/2011       DARPA-BAA-11-40        4/4/2011               $           5,059,188        CPFF
  2     HR0011-11-C-0150         9/30/2011       DARPA-BAA-11-40        4/4/2011                           3,227,000        FFP
  3     HR0011-12-C-0014         10/13/2011      DARPA-BAA-11-40        4/4/2011                          59,154,152        CPFF
  4     HR0011-12-C-0015         10/12/2011      DARPA-BAA-11-40        4/4/2011                          39,357,452        Cost
  5     HR0011-12-C-0016         10/24/2011      DARPA-BAA-11-40        4/4/2011                          41,536,592        CPFF
  6     HR0011-12-C-0017         1/13/2012       DARPA-BAA-11-40        4/4/2011                           9,413,598        CPFF
  7     HR0011-11-C-0138         9/23/2011       DARPA-BAA-11-46       4/22/2011                           5,999,672        CPFF
  8     HR0011-11-C-0139         9/30/2011       DARPA-BAA-11-46       4/22/2011                          37,348,162        CPFF
  9     HR0011-12-C-0019         10/20/2011      DARPA-BAA-11-46       4/22/2011                          33,314,126    Cost and CPFF
  10    HR0011-12-C-0048         3/16/2012       DARPA-BAA-11-46       4/22/2011                           5,948,961        CPFF
  11    HR0011-12-C-0028         6/11/2012       DARPA-BAA-11-54        5/5/2011                           1,045,966     Cost Share
  12    HR0011-12-C-0034         5/29/2012       DARPA-BAA-11-54        5/5/2011                             965,159        CPFF
  13    HR0011-12-C-0035         6/30/2012       DARPA-BAA-11-54        5/5/2011                           3,715,340        CPFF
  14    HR0011-12-C-0036         6/18/2012       DARPA-BAA-11-54        5/5/2011                           6,287,697        FFP
  15    HR0011-12-C-0037         5/11/2012       DARPA-BAA-11-54        5/5/2011                           3,721,460        CPFF
  16    HR0011-12-C-0038         5/15/2012       DARPA-BAA-11-54        5/5/2011                           1,456,000        Cost
  17    HR0011-12-C-0039         5/14/2012       DARPA-BAA-11-54        5/5/2011                           7,193,322        CPFF
  18    HR0011-12-C-0040         5/11/2012       DARPA-BAA-11-54        5/5/2011                           2,673,845        CPFF
  19    HR0011-12-C-0052         5/25/2012       DARPA-BAA-12-07       11/3/2011                           6,248,565        CPFF

*See the Legend on the last page of Appendix B




24 │ DODIG-2013-126
                                                                                                                                                  Appendixes



Contracts Reviewed (cont’d)
                                 Contract                                    Original Publication   Value of Contract at Award,
          Contract                                          BAA                                                                   Contract Type
                                Award Date                                       Date of BAA            Including Options
 20   HR0011-12-C-0053           3/28/2012           DARPA-BAA-12-07             11/3/2011                           1,909,214        CPFF
 21   HR0011-12-C-0054            4/3/2012           DARPA-BAA-12-07             11/3/2011                           4,499,138        CPFF
 22   HR0011-12-C-0055            4/2/2012           DARPA-BAA-12-07             11/3/2011                             969,396        FFP
 23   HR0011-12-C-0058           4/19/2012           DARPA-BAA-12-07             11/3/2011                           2,319,613        CPFF
 24   HR0011-12-C-0083           8/27/2012           DARPA-BAA-12-13             11/9/2011                           6,079,843        CPFF
 25   HR0011-12-C-0084           8/15/2012           DARPA-BAA-12-13             11/9/2011                           2,000,922        CPFF
 26   HR0011-12-C-0087           7/30/2012           DARPA-BAA-12-13             11/9/2011                           1,199,824        Cost
 27   HR0011-12-C-0092           8/30/2012           DARPA-BAA-12-13             11/9/2011                           4,695,501        CPFF
 28   HR0011-12-C-0093            8/6/2012           DARPA-BAA-12-13             11/9/2011                           1,936,484        CPFF
 29   HR0011-12-C-0095           8/17/2012           DARPA-BAA-12-13             11/9/2011                           9,513,487        CPFF
 30   HR0011-12-C-0074           6/18/2012           DARPA-BAA-12-15             12/5/2011                          27,557,449        CPFF
 31   HR0011-12-C-0086           8/14/2012           DARPA-BAA-12-19             12/13/2011                         59,513,644    CPFF and CPIF
 32   HR0011-12-C-0117           9/25/2012           DARPA-BAA-12-24              2/3/2012                           6,276,279        CPFF
 33   HR0011-12-C-0123           9/28/2012           DARPA-BAA-12-24              2/3/2012                           8,727,422        CPFF
 34   HR0011-13-C-0005          10/31/2012           DARPA-BAA-12-24              2/3/2012                          10,928,471        CPFF
 35   HR0011-12-C-0103            9/1/2012           DARPA-BAA-12-31             2/16/2012                           2,787,422        Cost
 36   HR0011-12-C-0104           9/17/2012           DARPA-BAA-12-31             2/16/2012                           1,777,697        FFP
                     Total Dollar Value of Contract at Award Including Options                           $         426,358,063

Legend
BAA Broad Agency Announcement
CPFF Cost-Plus-Fixed-Fee
CPIF Cost-Plus-Incentive-Fee
FFP   Firm-Fixed-Price




                                                                                                                                             DODIG-2013-126 │ 25
Appendixes




Appendix C
Review of Broad Agency Announcements
In addition to reviewing the contracts awarded from the broad agency announcements (BAAs), we reviewed key aspects of the BAA
requirements. Defense Advanced Research Projects Agency (DARPA) personnel complied with the Federal Acquisition Regulation (FAR)
and DARPA internal policy requirements with a few exceptions related to the issuance of 9 BAAs that resulted in DARPA Contracts
Management Office personnel awarding 36 contracts. Specifically, DARPA personnel complied with:

          •	 FAR and DARPA internal policy BAA content requirements,

          •	 FAR BAA competitive procedures requirements,

          •	 DARPA internal policy requirements for BAA reviews and approvals before publication with a few minor exceptions, and

          •	 FAR and DARPA internal policy requirements for BAA publication.

See the following table for compliant criteria.

Table C. Adequate Compliance With FAR and DARPA Internal Policy Requirements
        Adequate Compliance                                                                    Criteria
             Identified
                                       FAR 35.016(b) states: The BAA, together with any supporting documents, shall:
                                        	 (1)	 Describe the agency’s research interest;
                                        	 (2)	 Describe the criteria for selecting the proposals, their relative importance, and the method of evaluation;
                                        	 (3)	 Specify the period of time during which proposals submitted in response to the BAA will be accepted; and
                                        	 (4)	 Contain instructions for the preparation and submission of proposals.

 FAR and DARPA Internal Policy BAA     DI No. 20 “Soliciting, Evaluating, and Selecting Proposals under Broad Agency Announcements and Research
 Content Requirements Were Met         Announcements,” February 10, 2011 (DI No. 20) states: “At minimum, the DARPA program manager must include the
                                       following three criteria within the BAA: Overall Scientific and Technical Merit; Potential Contribution and Relevance to
                                       the DARPA Mission; and Cost Realism.”
                                       DARPA Guide to Broad Agency Announcements and Research Announcements, February 2011 (DARPA Guide to BAAs
                                       and RAs) states: “The DARPA program managers must include in the BAAs that the proposals submitted must be
                                       subject to scientific review.”

*See the Legend on the last page of Appendix C

26 │ DODIG-2013-126
                                                                                                                                                              Appendixes



Table C. Adequate Compliance With FAR and DARPA Internal Policy Requirements (cont’d)
        Adequate Compliance                                                                    Criteria
             Identified
                                       FAR 6.102(d)(2) states: “Competitive selection of basic and applied research and that part of development not related
                                       to the development of a specific system or hardware procurement is a competitive procedure if award results from –
                                        	 (i)	 A broad agency announcement that is general in nature identifying areas of research interest, including criteria
                                                for selecting proposals, and soliciting the participation of all offerors capable of satisfying the Government’s
                                                needs; and
                                        	 (ii)	 A peer or scientific review.”
 FAR BAA Competitive Procedure
 Requirements Were Met                 FAR 35.016(a) “General” states: “This paragraph prescribes procedures for the use of the BAAs with Peer or Scientific
                                       Review (see 6.102(d)(2)) for the acquisition of basic and applied research and that part of development not related
                                       to the development of a specific system or hardware procurement. BAA’s may be used by agencies to fulfill their
                                       requirements for scientific study and experimentation directed toward advancing the state-of-the-art or increasing
                                       knowledge or understanding rather than focusing on a specific system or hardware solution. The BAA technique shall
                                       only be used when meaningful proposals with varying technical/scientific approaches can be reasonably anticipated.”
                                       DI No. 20 requires:
 DARPA Internal Policy                    •	 the assigned Program Manager; Assistant Director/Program Management; Technical Office Director;
 Requirements for BAA Reviews                 General Counsel; the Program Director, Small Business Programs Office; Security & Intelligence Directorate; the
 and Approvals Were Met                       contracting officer; and the Director, CMO, DARPA to review the BAAs before issuance.
                                          •	 the Director, CMO, DARPA to approve BAAs before posting on Federal Business Opportunities.
                                       FAR 35.016(c) requires DARPA CMO personnel to publish the BAAs through the Governmentwide point of entry
                                       known as Federal Business Opportunities.

 FAR and DARPA Internal Policy         FAR 5.203(e) states: “Agencies shall allow at least a 45-day response time for receipt of bids or proposals from
 BAA Publication Requirements          the date of publication of the notice required in 5.201 for proposed contract actions categorized as research and
 Were Met                              development if the proposed contract action is expected to exceed the simplified acquisition threshold.”

                                       DARPA Guide to BAAs and RAs requires Program Specific BAAs to include a submission “cut-off” date that is within
                                       6 months of the date of issuance.


Legend
BAA      Broad Agency Announcement                            DI     Defense Advanced Research Projects Agency Instruction
CMO      Contracts Management Office                          FAR    Federal Acquisition Regulation
DARPA    Defense Advanced Research Projects Agency            RA     Research Announcements




                                                                                                                                                         DODIG-2013-126 │ 27
Appendixes




                                                         Appendix D
                                                         Federal Acquisition Circular 2005-50 Issued on
                                                         March 16, 2011

                                                                             Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations                                        14543

                                                            established new requirements for           order to make this determination. The      Item X—Technical Amendments
                                                            agencies subject to Title 10, United       rule further details, when this               Editorial changes are made at FAR
                                                            States Code. As a matter of policy, this   determination cannot be made, the          19.201, 52.212–3, and 52.212–5.
                                                            provision of law was applied to            information which may be requested to
                                                            contracts awarded by all executive         determine price reasonableness.               Dated: March 4, 2011.
                                                            agencies. The rule requires that market                                               Millisa Gary,
                                                                                                       Item VII—Trade Agreements
                                                            research must be conducted before an                                                  Acting Director, Office of Governmentwide
                                                                                                       Thresholds (FAR Case 2009–040)             Acquisition Policy.
                                                            agency places a task or delivery order in
                                                            excess of the simplified acquisition          This final rule adopts, without            Federal Acquisition Circular (FAC) 2005–
                                                            threshold under an indefinite-delivery     change,  an  interim rule that amended     50 is issued under the authority of the
                                                            indefinite-quantity contract. In addition, the FAR   to adjust the thresholds  for    Secretary  of Defense, the Administrator of
                                                            a prime contractor with a contract in      application of the World Trade             General Services, and the Administrator for
                                                            excess of $5 million for the procurement Organization Government Procurement          the National Aeronautics and Space
                                                                                                       Agreement and the Free Trade               Administration.
                                                            of items other than commercial items is                                                  Unless otherwise specified, all Federal
                                                            required to conduct market research        Agreements as determined by the
                                                                                                                                                  Acquisition Regulation (FAR) and other
                                                            before making purchases that exceed the United States Trade Representative,           directive material contained in FAC 2005–50
                                                            simplified acquisition threshold. Among according to a pre-determined formula         is effective March 16, 2011, except for Item
                                                            other changes, the final rule also deletes under the agreements.                      IV which is effective April 15, 2011, and Item
                                                            the language added to FAR 52.244–6         Item VIII—Disclosure and Consistency       II which is effective May 16, 2011.
                                                            (Alternate I) and relocates it to a newThisofsection      intentionally
                                                                                                          Cost Accounting    Practices forleft blank Dated: March 4, 2011.
                                                            FAR clause 52.210–1, Market Research.      Contracts Awarded to Foreign Concerns Amy G. Williams,
                                                            Item V—Socioeconomic Program Parity (FAR Case 2009–025)                               Acting Deputy Director, Defense Procurement
                                                            (FAR Case 2011–004) (Interim)                 This final rule adopts, without         and Acquisition Policy (Defense Acquisition
                                                                                                       change, the interim rule that amended      Regulations System).
                                                               This interim rule amends the FAR to
                                                            implement section 1347 of the ‘‘Small      the FAR to revise FAR 30.201–4(c),            Dated: March 4, 2011.
                                                            Business Jobs Act of 2010’’ (Pub. L. 111– 30.201–4(d)(1), 52.230–4, and 52.230–6      Joseph A. Neurauter,
                                                            240) and the Small Business                to maintain consistency between FAR        Deputy Associate Administrator and Senior
                                                            Administration regulations governing       and Cost Accounting Standards (CAS)        Procurement Executive, Office of Acquisition
                                                            specific contracting and business          regarding the administration of the Cost Policy, U.S. General Services Administration.
                                                            assistance programs. Section 1347          Accounting Standard Board’s (CASB)            Dated: February 28, 2011.
                                                            changed the word ‘‘shall’’ to ‘‘may’’ at   rules, regulations and standards. This     Sheryl J. Goddard,
                                                            section 31(b)(2)(B) of the Small Business revision was necessitated by the CASB       Acting Assistant Administrator for
                                                            Act (15 U.S.C. 657a(b)(2)(B), thereby      publishing a final rule in the Federal     Procurement National Aeronautics and Space
                                                            permitting a contracting officer to use    Register  on  March  26, 2008  (73 FR      Administration.
                                                            discretion when determining whether        15939)  which   implemented    the revised [FR Doc. 2011–5551 Filed 3–15–11; 8:45 am]
                                                            an acquisition will be restricted to a     clause, Disclosure and Consistency of      BILLING CODE 6820–EP–P
                                                            small business participating in the 8(a)   Cost Accounting Practices—Foreign
                                                            Business Development Program, the          Concerns, in CAS-covered contracts and
                                                            Historically Underutilized Business        subcontracts awarded to foreign            DEPARTMENT OF DEFENSE
                                                            Zone Program, or the Service-Disabled      concerns.
                                                            Veteran-Owned Small Business                                                          GENERAL SERVICES
                                                                                                       Item IX—Compensation for Personal          ADMINISTRATION
                                                            Program.                                   Services (FAR Case 2009–026)
                                                            Item VI—Use of Commercial Services                         This final rule adopts, without                    NATIONAL AERONAUTICS AND
                                                            Item Authority (FAR Case 2008–034)                      change, the interim rule that amended                 SPACE ADMINISTRATION
                                                               This final rule adopts, without                      the FAR to align the existing FAR
                                                            change, an interim rule that                            31.205–6(q)(2)(i) through (vi) with the               48 CFR Parts 1, 2, 7, 16, 32, 42, and 50
                                                            implemented section 868 of the Duncan                   changes made in Cost Accounting                       [FAC 2005–50; FAR Case 2008–030; Item
                                                            Hunter National Defense Authorization                   Standards (CAS) Board standards 412                   I; Docket 2011–0082, Sequence 1]
                                                            Act for Fiscal Year 2009 (Pub. L. 110–                  ‘‘Cost Accounting Standard for
                                                            417). Section 868 provides that the FAR                 composition and measurement of                        RIN 9000–AL78
                                                            shall be amended with respect to the                    pension cost,’’ and 415 ‘‘Accounting for
                                                                                                                                                                          Federal Acquisition Regulation; Proper
                                                            procurement of commercial services                      the cost of deferred compensation.’’
                                                                                                                                                                          Use and Management of Cost-
                                                            that are not offered and sold                           Formerly, the applicable CAS standard
                                                                                                                                                                          Reimbursement Contracts
                                                            competitively in substantial quantities                 for measuring, assigning, and allocating
                                                            in the commercial marketplace, but are                  the costs of Employee Stock Ownership                 AGENCIES:  Department of Defense (DoD),
                                                            of a type offered and sold competitively                Plans (ESOPs) depended on whether the                 General Services Administration (GSA),
                                                            in substantial quantities in the                        ESOP met the definition of a pension                  and National Aeronautics and Space
                                                            commercial marketplace. Such services                   plan at FAR 31.001. Costs for ESOPs                   Administration (NASA).
                                                            may be considered commercial items                      meeting the definition of a pension plan              ACTION: Interim rule with request for
                                                            only if the contracting officer has                     at FAR 31.001 were covered by CAS                     comments.
                                                            determined in writing that the offeror                  412, while the costs for ESOPs not
              jlentini on DSKJ8SOYB1PROD with RULES2




                                                            has submitted sufficient information to                 meeting the definition of a pension plan              SUMMARY:   DoD, GSA, and NASA are
                                                            evaluate, through price analysis, the                   at FAR 31.001 were covered by CAS                     issuing an interim rule amending the
                                                            reasonableness of the price for these                   415. Now, regardless of whether an                    Federal Acquisition Regulation (FAR) to
                                                            services.                                               ESOP meets the definitions of a pension               implement section 864 of the Duncan
                                                               The rule details the information the                 plan at FAR 31.001, all costs of ESOPs                Hunter National Defense Authorization
                                                            contracting officer may consider in                     are covered by CAS 415.                               Act for Fiscal Year 2009. This law aligns


                                                       VerDate Mar<15>2010   18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00003   Fmt 4701   Sfmt 4700   E:\FR\FM\16MRR2.SGM   16MRR2




28 │ DODIG-2013-126
                                                                                                                                                                                                              Appendixes



                                           Federal Acquisition Circular 2005-50 Issued on
                                           March 16, 2011 (cont’d)

                                              14544            Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations

                                              with the Presidential Memorandum on                        Section 864 requires the FAR to be                 contract type in accordance with FAR
                                              Government Contracting, issued on                       revised to address the use and                        subpart 16.1; ensure that the statement
                                              March 4, 2009, which directed agencies                  management of cost-reimbursement                      of work is closely aligned with the
                                              to save $40 billion in contracting                      contracts and identifies the following                performance outcomes and cost
                                              annually by Fiscal Year (FY) 2011 and                   three areas that the Defense Acquisition              estimates; and obtain an approval and
                                              to reduce the use of high-risk contracts.               Regulation Council and the Civilian                   signature from the appropriate
                                              This rule provides regulatory guidance                  Agency Acquisition Council (Councils)                 acquisition official at least one level
                                              on the proper use and management of                     should consider in amending the FAR—                  above the contracting officer. FAR
                                              other than firm-fixed-price contracts                      (a) Circumstances when cost-                       7.105(b)(5)(iv) was added to discuss the
                                              (e.g., cost-reimbursement, time-and-                    reimbursement contracts are                           strategy to transition from cost-
                                              material, and labor-hour).                              appropriate;                                          reimbursement contracts to firm-fixed-
                                              DATES: Effective Date: March 16, 2011.                     (b) Acquisition plan findings to                   price contracts. Although FAR
                                                 Comment Date: Interested parties                     support the selection of a cost-                      7.105(b)(5), Acquisition considerations,
                                              should submit written comments to the                   reimbursement contract; and                           requires the acquisition plans to include
                                              Regulatory Secretariat on or before May                    (c) Acquisition resources necessary to             a discussion of contract type selection
                                              16, 2011 to be considered in the                        award and manage a cost-                              and rationale, the Councils believe that
                                              formulation of a final rule.                            reimbursement contract.                               a greater emphasis on the use of cost-
                                                                                                         1. Guidance on Cost-reimbursement                  reimbursement contracts should be
                                              ADDRESSES: Submit comments
                                                                                                      contracts. As required, the Councils                  added and included a new paragraph at
                                              identified by FAC 2005–50, FAR Case                     included additional coverage at FAR
                                              2008–030, by any of the following                                                                             FAR 7.105(b)(3), Contract type selection.
                                                                                                      subpart 16.1, Selecting Contract Types,               Additionally, FAR 16.301–3(a) has been
                                              methods:                                                and at subpart 16.3, Cost-
                                                 • Regulations.gov: http://                                                                                 amended and renumbered.
                                                                                                      Reimbursement Contracts, to provide                      3. Acquisition workforce resources.
                                              www.regulations.gov. Submit comments
                                                                                                      further guidance as to when, and under                The Councils recognize that assigning
                                              via the Federal eRulemaking portal by
                                                                                                      what circumstances, cost-                             adequate and proper resources to
                                              inputting ‘‘FAR Case 2008–030’’ under
                                                                                                      reimbursement contracts are                           support the solicitation, award, and
                                              the heading ‘‘Enter Keyword or ID’’ and
                                                                                                      appropriate. Therefore, this rule makes               administration of other than firm-fixed-
                                              selecting ‘‘Search.’’ Select the link
                                                                                                      the following changes:                                price contracts (cost-reimbursement,
                                              ‘‘Submit a Comment’’ that corresponds                      • FAR 16.103, Negotiating contract                 time-and-material, and labor-hour)
                                              with ‘‘FAR Case 2008–030.’’ Follow the                  type, is amended to revise paragraph (d)              contract is challenging. There is also
                                              instructions provided at the ‘‘Submit a                 to reflect additional documentation                   great concern that a lack of involvement
                                              Comment’’ screen. Please include your                   when other than a firm-fixed-price                    in contract oversight by program offices
                                              name, company name (if any), and ‘‘FAR                  contract type is selected.                            is primarily present in other than firm-
                                              Case 2008–030’’ on your attached                           • FAR 16.104, Factors in selecting                 fixed-price contracts. Therefore, from
                                              document.                                               contract types, is amended to add a new               the outset, contracting officers should be
                                                 • Fax: (202) 501–4067.                               paragraph (e) to provide guidance to the              assured, to the greatest extent
                                                 • Mail: General Services                             contracting officer to consider                       practicable, that the right resources in
                                              Administration, Regulatory Secretariat                  combining contract types if the entire                number, kind, and availability be
                                              (MVCB), ATTN: Hada Flowers, 1275                        contract cannot be firm fixed-price.                  assigned to support other than firm-
                                              First Street, NE., 7th Floor, Washington,                  • FAR 16.301–2, Application, is                    fixed-price contracts. The Councils
                                              DC 20417.                                               amended to provide guidance to the                    consider that greater accountability for
                                                 Instructions: Please submit comments                 contracting officer as to the                         the management and oversight of all
                                              only and cite FAC 2005–50, FAR Case                     circumstances in which to use cost-                   contracts, especially other than firm-
                                              2008–030, in all correspondence related                 reimbursement contracts as well as                    fixed-price contracts, can be gained and
                                              to this case. All comments received will                outlining the rationale for                           improved by requiring that properly
                                              be posted without change to http://                     documentation for selecting this                      trained CORs or COTRs (see FAR
                                              www.regulations.gov, including any                      contract type.                                        2.101(b)(2), Definitions) be appointed
                                              personal and/or business confidential                      • FAR 16.301–3, Limitations, is                    before award. Therefore, FAR 7.104,
                                              information provided.                                   amended to (1) provide additional                     General Procedures, and FAR 16.301–
                                              FOR FURTHER INFORMATION CONTACT: For                    guidance to the contracting officer as to             3(a)(4)(i) are amended to reflect that
                                              clarification of content, contact Lori                  when a cost-reimbursement contract                    prior to award of a contract, especially
                                              Sakalos, Procurement Analyst, at (202)                  may be used, (2) ensure that all factors              on other than firm-fixed price contracts,
                                              208–0498. For information pertaining to                 have been considered per FAR 16.104,                  at least one COR or COTR qualified in
                                              status or publication schedules, contact                and (3) ensure that adequate                          accordance with FAR 1.602–2 is
                                              the Regulatory Secretariat at (202) 501–                Government resources are available to                 designated. FAR 1.602–2,
                                              4755. Please cite FAC 2005–50, FAR                      award and manage this type of contract.               Responsibilities, is amended to add a
                                              Case 2008–030.                                             • FAR 7.104(e) also requires the                   new paragraph (d) outlining the
                                              SUPPLEMENTARY INFORMATION:                              designation of a properly trained                     requirement for the contracting officer
                                                                                                      contracting officer’s representative                  to designate and authorize, in writing, a
                                              I. Background                                           (COR) (or contracting officer’s technical             COR on contracts and orders, as
                                                This case implements section 864 of                   representative (COTR)) prior to award of              appropriate. Additionally, a new section
                                              the Duncan Hunter National Defense                      the contract or order.                                was added at FAR 1.604, Contracting
                                              Authorization Act for Fiscal Year 2009                     2. Identification of acquisition plan              officer’s representative, outlining the
jlentini on DSKJ8SOYB1PROD with RULES2




                                              (Pub. L. 110–417), enacted October 14,                  findings. FAR 7.103, Agency-head                      COR’s duties.
                                              2008. This law aligns with the                          responsibilities, is amended and                         4. Contract administration functions.
                                              President’s goal of reducing high-risk                  renumbered to add new paragraphs                      A new paragraph was added at FAR
                                              contracting as denoted in the March 4,                  7.103(d), 7.103(f), and 7.103(j) to ensure            42.302(a)(12) to require that the
                                              2009, Presidential Memorandum on                        that acquisition planners document the                contracting officer determine the
                                              Government Contracting.                                 file to support the selection of the                  continuing adequacy of the contractor’s


                                         VerDate Mar<15>2010   18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00004   Fmt 4701   Sfmt 4700   E:\FR\FM\16MRR2.SGM   16MRR2




                                                                                                                                                                                                         DODIG-2013-126 │ 29
Appendixes



                                                         Federal Acquisition Circular 2005-50 Issued on
                                                         March 16, 2011 (cont’d)

                                                                             Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations                                           14545

                                                            accounting system during the entire                     compelling reasons exist to promulgate                  (3) Must be qualified by training and
                                                            period of contract performance. Also,                   this interim rule without prior                       experience commensurate with the
                                                            paragraph (a)(12) was added to the list                 opportunity for public comment. This                  responsibilities to be delegated in
                                                            of functions at FAR 42.302(a) that                      action is necessary because section 864               accordance with department/agency
                                                            cannot be retained and that must be                     of the Duncan Hunter National Defense                 guidelines;
                                                            delegated by the contracting officer                    Authorization Act for Fiscal Year 2009,                 (4) May not be delegated
                                                            when delegating contract administration                 enacted October 14, 2008, directs that it             responsibility to perform functions that
                                                            functions to a contract administration                  must be implemented within 270 days                   have been delegated under 42.202 to a
                                                            office in accordance with FAR                           from enactment. This rule is also urgent              contract administration office, but may
                                                            42.202(a).                                              because this law requires the Inspector               be assigned some duties at 42.302 by the
                                                                                                                    General to conduct a compliance review                contracting officer;
                                                            II. Executive Order 12866
                                                                                                                    for each executive agency, one year after               (5) Has no authority to make any
                                                               This is a significant regulatory action              the regulations have been promulgated,                commitments or changes that affect
                                                            and, therefore, was subject to review                   on the use of cost-reimbursement                      price, quality, quantity, delivery, or
                                                            under Section 6(b) of Executive Order                   contracts and include the results of their            other terms and conditions of the
                                                            12866, Regulatory Planning and Review,                  findings in the IG’s next semiannual                  contract; and
                                                            dated September 30, 1993. This rule is                  report. However, pursuant to 41 U.S.C.                  (6) Must be designated in writing,
                                                            not a major rule under 5 U.S.C. 804.                    1707 and FAR 1.501–3(b), DoD, GSA,                    with copies furnished to the contractor
                                                            III. Regulatory Flexibility Act                         and NASA will consider public                         and the contract administration office—
                                                                                                                    comments received in response to this                   (i) Specifying the extent of the COR’s
                                                               DoD, GSA, and NASA do not expect                     interim rule in the formation of the final            authority to act on behalf of the
                                                            this interim rule to have a significant                 rule.                                                 contracting officer;
                                                            economic impact on a substantial                                                                                (ii) Identifying the limitations on the
                                                            number of small entities within the                     List of Subjects in 48 CFR Parts 1, 2, 7,
                                                                                                                                                                          COR’s authority;
                                                            meaning of the Regulatory Flexibility                   16, 32, 42, and 50                                      (iii) Specifying the period covered by
                                                            Act, 5 U.S.C. 601, et seq., because                         Government procurement.                           the designation;
                                                            section 864 affects only internal                                                                               (iv) Stating the authority is not
                                                                                                                     Dated: March 4, 2011.
                                                            Government operations and requires the                                                                        redelegable; and
                                                            Government to establish internal                        Millisa Gary,
                                                                                                                                                                            (v) Stating that the COR may be
                                                            guidance on the proper use and                          Acting Director, Office of Governmentwide
                                                                                                                    Acquisition Policy Division.                          personally liable for unauthorized acts.
                                                            management of all contracts especially
                                                                                                                                                                          ■ 3. Amend section 1.603 by revising
                                                            other than firm-fixed-price contracts                     Therefore, DoD, GSA, and NASA
                                                                                                                    amend 48 CFR parts 1, 2, 7, 16, 32, 42,               the section heading to read as follows:
                                                            (e.g., cost-reimbursement, time-and-
                                                            material, and labor-hour) and does not                  and 50 as set forth below:                            1.603 Selection, appointment, and
                                                            impose any additional requirements on                   ■ 1. The authority citation for 48 CFR                termination of appointment for contracting
                                                            small businesses.                                       parts 1, 2, 7, 16, 32, 42, and 50                     officers.
                                                               Therefore, an Initial Regulatory                     continues to read as follows:                         *     *    *     *    *
                                                            Flexibility Analysis has not been                         Authority: 40 U.S.C. 121(c); 10 U.S.C.              ■ 4. Add section 1.604 to read as
                                                            performed. DoD, GSA, and NASA invite                    chapter 137; and 42 U.S.C. 2473(c).                   follows:
                                                            comments from small business entities
                                                            and other interested parties on the                     PART 1—FEDERAL ACQUISITION                            1.604 Contracting Officer’s Representative
                                                            expected impact of this rule on small                   REGULATIONS SYSTEM                                    (COR).
                                                            entities.                                                                                                        A contracting officer’s representative
                                                               DoD, GSA, and NASA will also                         ■ 2. Amend section 1.602–2 by adding                  (COR) assists in the technical
                                                            consider comments from small entities                   paragraph (d) to read as follows:                     monitoring or administration of a
                                                            concerning the existing regulations in                                                                        contract (see 1.602–2(d)). The COR shall
                                                                                                                    1.602–2    Responsibilities.
                                                            subparts affected by the rule in                                                                              maintain a file for each assigned
                                                            accordance with 5 U.S.C. 610. Interested                *      *     *    *      *                            contract. The file must include, at a
                                                            parties must submit such comments                          (d) Designate and authorize, in                    minimum—
                                                            separately and should cite 5 U.S.C. 610                 writing, a contracting officer’s                         (a) A copy of the contracting officer’s
                                                            (FAC 2005–50, FAR Case 2008–030) in                     representative (COR) on all contracts                 letter of designation and other
                                                            correspondence.                                         and orders other than those that are                  documents describing the COR’s duties
                                                                                                                    firm-fixed price, and for firm-fixed-price            and responsibilities;
                                                            IV. Paperwork Reduction Act                             contracts and orders as appropriate.                     (b) A copy of the contract
                                                              The changes to the FAR do not                         However, the contracting officer is not               administration functions delegated to a
                                                            impose information collection                           precluded from retaining and executing                contract administration office which
                                                            requirements that require the approval                  the COR duties as appropriate. See                    may not be delegated to the COR (see
                                                            of the Office of Management and Budget                  7.104(e). A COR—                                      1.602–2(d)(4)); and
                                                            under the Paperwork Reduction Act (44                      (1) Must be a Government employee,                    (c) Documentation of COR actions
                                                            U.S.C. chapter 35).                                     unless otherwise authorized in agency                 taken in accordance with the delegation
                                                                                                                    regulations;                                          of authority.
                                                            V. Determination To Issue an Interim                       (2) Shall be certified and maintain
                                                            Rule                                                    certification in accordance with the                  PART 2—DEFINITIONS OF WORDS
              jlentini on DSKJ8SOYB1PROD with RULES2




                                                              A determination has been made under                   Office of Management and Budget                       AND TERMS
                                                            the authority of the Secretary of Defense               memorandum entitled ‘‘The Federal
                                                            (DoD), the Administrator of General                     Acquisition Certification for Contracting             ■ 5. Amend section 2.101 in paragraph
                                                            Services (GSA), and the Administrator                   Officer Technical Representatives’’                   (b)(2) by adding, in alphabetical order,
                                                            of the National Aeronautics and Space                   dated November 26, 2007, or for DoD,                  the definition ‘‘Contracting officer’s
                                                            Administration (NASA) that urgent and                   DoD Regulations, as applicable;                       representative (COR)’’ to read as follows:


                                                       VerDate Mar<15>2010   18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00005   Fmt 4701   Sfmt 4700   E:\FR\FM\16MRR2.SGM   16MRR2




30 │ DODIG-2013-126
                                                                                                                                                                                                                 Appendixes



                                           Federal Acquisition Circular 2005-50 Issued on
                                           March 16, 2011 (cont’d)

                                              14546             Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations

                                              2.101   Definitions.                                     approved and signed at least one level                requirements, e.g., contract line items
                                              *     *     *     *     *                                above the contracting officer.                        (CLINS), in a manner that will permit
                                                (b) * * *                                              *     *    *     *     *                              some, if not all, of the requirements to
                                                (2) * * *                                              ■ 8. Amend section 7.104 by adding
                                                                                                                                                             be awarded on a firm-fixed-price basis,
                                                Contracting officer’s representative                   paragraph (e) to read as follows:                     either in the current contract, future
                                              (COR) means an individual, including a                                                                         option years, or follow-on contracts.
                                              contracting officer’s technical                          7.104    General procedures.                          This will facilitate an easier transition to
                                              representative (COTR), designated and                    *      *     *     *     *                            a firm-fixed-price contact because a cost
                                              authorized in writing by the contracting                    (e) The planner shall ensure that a                history will be developed for a recurring
                                              officer to perform specific technical or                 COR is nominated by the requirements                  definitive requirement.
                                              administrative functions.                                official, and designated and authorized               *     *     *     *      *
                                              *     *     *     *     *                                by the contracting officer, as early as
                                                                                                       practicable in the acquisition process.               PART 16—TYPES OF CONTRACTS
                                              PART 7—ACQUISITION PLANNING                              The contracting officer shall designate
                                                                                                       and authorize a COR as early as                       ■ 10. Amend section 16.103 by revising
                                              ■ 6. Amend section 7.102 by adding                                                                             paragraphs (d)(1) and (2) to read as
                                                                                                       practicable after the nomination. See
                                              paragraph (a)(3) to read as follows:                                                                           follows:
                                                                                                       1.602–2(d).
                                              7.102   Policy.                                          ■ 9. Amend section 7.105 by—                          16.103    Negotiating contract type.
                                                (a) * * *                                              ■ a. Removing from the first sentence of              *       *    *     *    *
                                                (3) Selection of appropriate contract                  the introductory text the words ‘‘see                    (d) * * *
                                              type in accordance with part 16.                         paragraph (b)(19)’’ and adding the words                 (1) Each contract file shall include
                                              *     *     *    *     *                                 ‘‘see paragraph (b)(21)’’ in their place;             documentation to show why the
                                                                                                       ■ b. Redesignating paragraphs (b)(3)                  particular contract type was selected.
                                              ■ 7. Amend section 7.103 by—
                                              ■ a. Redesignating paragraphs (e)
                                                                                                       through (b)(21) as paragraphs (b)(4)                  This shall be documented in the
                                              through (w) as paragraphs (g) through                    through (b)(22), respectively;                        acquisition plan, or if a written
                                                                                                       ■ c. Adding a new paragraph (b)(3);                   acquisition plan is not required, in the
                                              (y);
                                              ■ b. Redesignating paragraph (d) as                      ■ d. Removing from newly redesignated                 contract file.
                                              paragraph (e);                                           paragraph (b)(5)(i) the words ‘‘contract                 (i) Explain why the contract type
                                              ■ c. Adding a new paragraph (d);                         type selection (see part 16);’’;                      selected must be used to meet the
                                              ■ d. Revising newly redesignated                         ■ e. Removing from newly redesignated                 agency need.
                                              paragraph (e);                                           paragraph (b)(5)(ii)(A) the words ‘‘see                  (ii) Discuss the Government’s
                                              ■ e. Adding a new paragraph (f); and                     7.103(t)’’ and adding the words ‘‘see                 additional risks and the burden to
                                              ■ f. Revising newly redesignated                         7.103(v)’’ in its place; and                          manage the contract type selected (e.g.,
                                              paragraph (j).                                           ■ f. Adding paragraph (b)(5)(iv).                     when a cost-reimbursement contract is
                                                The added and revised text reads as                       The added text reads as follows:                   selected, the Government incurs
                                              follows:                                                                                                       additional cost risks, and the
                                                                                                       7.105 Contents of written acquisition
                                                                                                       plans.                                                Government has the additional burden
                                              7.103   Agency-head responsibilities.
                                                                                                                                                             of managing the contractor’s costs). For
                                              *      *     *    *      *                               *      *     *    *     *                             such instances, acquisition personnel
                                                 (d) Ensuring that acquisition planners                   (b) * * *                                          shall discuss—
                                              document the file to support the                            (3) Contract type selection. Discuss                  (A) How the Government identified
                                              selection of the contract type in                        the rationale for the selection of contract           the additional risks (e.g., pre-award
                                              accordance with subpart 16.1.                            type. For other than firm-fixed-price                 survey, or past performance
                                                 (e) Establishing criteria and                         contracts, see 16.103(d) for additional               information);
                                              thresholds at which increasingly greater                 documentation guidance. Acquisition                      (B) The nature of the additional risks
                                              detail and formality in the planning                     personnel shall document the                          (e.g., inadequate contractor’s accounting
                                              process is required as the acquisition                   acquisition plan with findings that                   system, weaknesses in contractor’s
                                              becomes more complex and costly,                         detail the particular facts and                       internal control, non-compliance with
                                              including for cost-reimbursement and                     circumstances, (e.g., complexity of the               Cost Accounting Standards, or lack of or
                                              other high-risk contracts (e.g., other than              requirements, uncertain duration of the               inadequate earned value management
                                              firm-fixed-price contracts) requiring a                  work, contractor’s technical capability               system); and
                                              written acquisition plan. A written plan                 and financial responsibility, or                         (C) How the Government will manage
                                              shall be prepared for cost                               adequacy of the contractor’s accounting               and mitigate the risks.
                                              reimbursement and other high-risk                        system), and associated reasoning                        (iii) Discuss the Government
                                              contracts other than firm-fixed-price                    essential to support the contract type                resources necessary to properly plan for,
                                              contracts, although written plans may                    selection. The contracting officer shall              award, and administer the contract type
                                              be required for firm-fixed-price                         ensure that requirements and technical                selected (e.g., resources needed and the
                                              contracts as appropriate.                                personnel provide the necessary                       additional risks to the Government if
                                                 (f) Ensuring that the statement of work               documentation to support the contract                 adequate resources are not provided).
                                              is closely aligned with performance                      type selection.                                          (iv) For other than a firm-fixed price
                                              outcomes and cost estimates.                             *      *     *    *     *                             contract, at a minimum the
                                              *      *     *    *      *                                  (5) * * *                                          documentation should include—
jlentini on DSKJ8SOYB1PROD with RULES2




                                                 (j) Reviewing and approving                              (iv) For each contract (and order)                    (A) An analysis of why the use of
                                              acquisition plans and revisions to these                 contemplated, discuss the strategy to                 other than a firm-fixed-price contract
                                              plans to ensure compliance with FAR                      transition to firm-fixed-price contracts              (e.g., cost reimbursement, time and
                                              requirements including 7.104 and part                    to the maximum extent practicable.                    materials, labor hour) is appropriate;
                                              16. For other than firm-fixed-price                      During the requirements development                      (B) Rationale that detail the particular
                                              contracts, ensuring that the plan is                     stage, consider structuring the contract              facts and circumstances (e.g.,


                                         VerDate Mar<15>2010    18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00006   Fmt 4701   Sfmt 4700   E:\FR\FM\16MRR2.SGM   16MRR2




                                                                                                                                                                                                            DODIG-2013-126 │ 31
Appendixes



                                                         Federal Acquisition Circular 2005-50 Issued on
                                                         March 16, 2011 (cont’d)

                                                                             Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations                                               14547

                                                            complexity of the requirements,                         ensure that the contractor’s accounting               PART 32—CONTRACT FINANCING
                                                            uncertain duration of the work,                         system will permit timely development
                                                            contractor’s technical capability and                   of all necessary cost data in the form                32.1007    [Amended]
                                                            financial responsibility, or adequacy of                required by the proposed contract type.
                                                                                                                                                                          ■ 14. Amend section 32.1007 by
                                                            the contractor’s accounting system), and                This factor may be critical—
                                                                                                                      (1) When the contract type requires                 removing from paragraph (a) ‘‘(see
                                                            associated reasoning essential to
                                                            support the contract type selection;                    price revision while performance is in                42.302(a)(12))’’ and adding ‘‘(see
                                                               (C) An assessment regarding the                      progress; or                                          42.302(a)(13))’’ in its place.
                                                            adequacy of Government resources that                     (2) When a cost-reimbursement
                                                                                                                    contract is being considered and all                  PART 42—CONTRACT
                                                            are necessary to properly plan for,
                                                            award, and administer other than firm-                  current or past experience with the                   ADMINISTRATION AND AUDIT
                                                            fixed-price contracts; and                              contractor has been on a fixed-price                  SERVICES
                                                               (D) A discussion of the actions                      basis. See 42.302(a)(12).
                                                            planned to minimize the use of other                    *      *    *     *    *                              ■  15. Amend section 42.302 by—
                                                            than firm-fixed-price contracts on future               ■ 12. Revise section 16.301–2 to read as              ■  a. Removing from the introductory
                                                            acquisitions for the same requirement                   follows:                                              text of paragraph (a) the words
                                                            and to transition to firm-fixed-price                                                                         ‘‘paragraphs (a)(5), (a)(9), and (a)(11)’’
                                                            contracts to the maximum extent                         16.301–2     Application.                             and adding the words ‘‘paragraphs (a)(5),
                                                            practicable.                                              (a) The contracting officer shall use               (a)(9), (a)(11), and (a)(12)’’ in their place;
                                                               (v) A discussion of why a level-of-                  cost-reimbursement contracts only
                                                                                                                                                                          ■ b. Redesignating paragraphs (a)(12)
                                                            effort, price redetermination, or fee                   when—
                                                            provision was included.                                   (1) Circumstances do not allow the                  through (a)(26) as paragraphs (a)(13)
                                                               (2) Exceptions to the requirements at                agency to define its requirements                     through (a)(27); and
                                                            (d)(1) of this section are—                             sufficiently to allow for a fixed-price               ■ c. Adding a new paragraph (a)(12) to
                                                               (i) Fixed-price acquisitions made                    type contract (see 7.105); or                         read as follows:
                                                            under simplified acquisition                              (2) Uncertainties involved in contract
                                                            procedures;                                             performance do not permit costs to be                 42.302    Contract administration functions.
                                                               (ii) Contracts on a firm-fixed-price                 estimated with sufficient accuracy to                    (a) * * *
                                                            basis other than those for major systems                use any type of fixed-price contract.
                                                            or research and development; and                          (b) The contracting officer shall                      (12) Determine the adequacy of the
                                                               (iii) Awards on the set-aside portion                document the rationale for selecting the              contractor’s accounting system. The
                                                            of sealed bid partial set-asides for small              contract type in the written acquisition              contractor’s accounting system should
                                                            business.                                               plan and ensure that the plan is                      be adequate during the entire period of
                                                                                                                    approved and signed at least one level                contract performance. The adequacy of
                                                            *       *    *     *     *
                                                                                                                    above the contracting officer (see                    the contractor’s accounting system and
                                                            ■ 11. Amend section 16.104 by—
                                                                                                                    7.103(j) and 7.105). If a written                     its associated internal control system, as
                                                            ■ a. Redesignating paragraphs (e)
                                                                                                                    acquisition plan is not required, the                 well as contractor compliance with the
                                                            through (k) as paragraphs (f) through (l),              contracting officer shall document the                Cost Accounting Standards (CAS), affect
                                                            respectively;                                           rationale in the contract file. See also
                                                            ■ b. Adding a new paragraph (e);
                                                                                                                                                                          the quality and validity of the contractor
                                                                                                                    16.103(d).                                            data upon which the Government must
                                                            ■ c. Removing from newly redesignated
                                                                                                                    ■ 13. Amend section 16.301–3 by                       rely for its management oversight of the
                                                            paragraph (f) the words ‘‘incentives to
                                                                                                                    revising paragraph (a) to read as follows:            contractor and contract performance.
                                                            ensure’’ and adding the words
                                                            ‘‘incentives tailored to performance                    16.301–3     Limitations.                             *      *     *    *     *
                                                            outcomes to ensure’’ in their place;                      (a) A cost-reimbursement contract
                                                            ■ d. Removing from newly redesignated                   may be used only when—                                PART 50—EXTRAORDINARY
                                                            paragraph (g) the words ‘‘price                           (1) The factors in 16.104 have been                 CONTRACTURAL ACTIONS AND THE
                                                            adjustment terms’’ and adding the words                 considered;                                           SAFETY ACT
                                                            ‘‘price adjustment or price                               (2) A written acquisition plan has
                                                            redetermination clauses’’ in their place;                                                                     50.205–1    [Amended]
                                                                                                                    been approved and signed at least one
                                                            and                                                     level above the contracting officer;                  ■  16. Amend section 50.205–1 by
                                                            ■ e. Revising newly redesignated                          (3) The contractor’s accounting                     removing from the first sentence in
                                                            paragraph (i).                                          system is adequate for determining costs              paragraph (b) the words ‘‘(see FAR
                                                               The added and revised text reads as                  applicable to the contract; and
                                                                                                                                                                          7.105(b)(19)(v))’’ and adding the words
                                                            follows:                                                  (4) Adequate Government resources
                                                                                                                    are available to award and manage a                   ‘‘(see 7.105(b)(20)(v))’’ in their place.
                                                            16.104    Factors in selecting contract types.          contract other than firm-fixed-priced                 [FR Doc. 2011–5552 Filed 3–15–11; 8:45 am]
                                                            *      *    *    *     *                                (see 7.104(e)) including—                             BILLING CODE 6820–EP–P
                                                               (e) Combining contract types. If the                    (i) Designation of at least one
                                                            entire contract cannot be firm-fixed-                   contracting officer’s representative
                                                            price, the contracting officer shall                    (COR) qualified in accordance with
                                                            consider whether or not a portion of the                1.602–2 has been made prior to award
                                                            contract can be established on a firm-                  of the contract or order; and
              jlentini on DSKJ8SOYB1PROD with RULES2




                                                            fixed-price basis.                                         (ii) Appropriate Government
                                                            *      *    *    *     *                                surveillance during performance to
                                                               (i) Adequacy of the contractor’s                     provide reasonable assurance that
                                                            accounting system. Before agreeing on a                 efficient methods and effective cost
                                                            contract type other than firm-fixed-                    controls are used.
                                                            price, the contracting officer shall                    *       *   *     *      *


                                                       VerDate Mar<15>2010   18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00007   Fmt 4701   Sfmt 9990   E:\FR\FM\16MRR2.SGM   16MRR2




32 │ DODIG-2013-126
                                                                                                                                                         Appendixes


Appendix E
Deficiencies Identified in Contracts Reviewed
                                          Scientific Review Process                               Cost-Reimbursement Interim Rule
                               Evaluation Reports                                                      Approval Not        Inadequate Determination
                                                            Appropriate      No Discussion of Plans
                             and Program Manager                                                       Obtained for        of the Acceptability of the
             Contract                                     Funding Approval   to Transition to Firm-
                                Summaries Not                                                          Contract Type         Contractor’s Accounting
                                                            Not Obtained     Fixed-Price Contracts
                                    Detailed                                                             Selection                   System
  1    HR0011-11-C-0142                                           √                    √                     √
  2    HR0011-11-C-0150                                           √                   N/A                   N/A                       N/A
  3    HR0011-12-C-0014                   √1                      √                    √                     √                         √6
  4    HR0011-12-C-0015                   √1                      √                    √                     √
  5    HR0011-12-C-0016                   √1                      √                    √                     √
  6    HR0011-12-C-0017                   √   1
                                                                  √                    √                     √
  7    HR0011-11-C-0138                                                                √                     √                         √5
  8    HR0011-11-C-0139                   √2                                           √                     √
  9    HR0011-12-C-0019                   √2                                           √                     √
  10   HR0011-12-C-0048                                           √                    √                     √
  11   HR0011-12-C-0028               √   1, 3, 4
                                                                                       √                     √
  12   HR0011-12-C-0034               √1, 2, 4                                         √                     √                         √5
  13   HR0011-12-C-0035               √1, 2, 4                                         √                     √                         √5
  14   HR0011-12-C-0036               √1, 3, 4                                        N/A                   N/A                       N/A
  15   HR0011-12-C-0037               √1, 3, 4                                         √                     √                         √5
  16   HR0011-12-C-0038               √1, 3, 4                                         √                     √
  17   HR0011-12-C-0039               √1, 3, 4                                         √                     √                         √5
  18   HR0011-12-C-0040              √1, 2, 3, 4                                       √                     √
  19   HR0011-12-C-0052                √1, 2                      √                    √                     √                         √6
  20   HR0011-12-C-0053                √1, 2                      √                    √                     √

Footnotes used throughout Appendix E are defined on the final page of Appendix E.

                                                                                                                                                 DODIG-2013-126 │ 33
Appendixes


Deficiencies Identified in Contracts Reviewed (cont’d)
                                      Scientific Review Process                                Cost-Reimbursement Interim Rule
                              Evaluation Reports                                                     Approval Not        Inadequate Determination
                                                        Appropriate       No Discussion of Plans
                            and Program Manager                                                      Obtained for        of the Acceptability of the
             Contract                                 Funding Approval    to Transition to Firm-
                               Summaries Not                                                         Contract Type         Contractor’s Accounting
                                                        Not Obtained      Fixed-Price Contracts
                                   Detailed                                                            Selection                   System
  21    HR0011-12-C-0054             √1, 2                    √                     √                      √                         √6
  22    HR0011-12-C-0055             √1, 2                    √                    N/A                   N/A                        N/A
  23    HR0011-12-C-0058             √   1, 2
                                                              √                     √                      √                         √5
  24    HR0011-12-C-0083              √2                                            √                      √                         √6
  25    HR0011-12-C-0084             √2, 3                                          √                      √                         √6
  26    HR0011-12-C-0087             √2, 3                                          √                      √
  27    HR0011-12-C-0092              √3                                            √                      √
  28    HR0011-12-C-0093              √2                                            √                      √
  29    HR0011-12-C-0095                                                            √                      √
  30    HR0011-12-C-0074              √   1
                                                                                    √                      √
  31    HR0011-12-C-0086                                                            √                      √                         √5
  32    HR0011-12-C-0117                                                            √                      √
  33    HR0011-12-C-0123              √1                                            √                      √
  34    HR0011-13-C-0005              √1                                            √                      √                         √6
  35    HR0011-12-C-0103              √1                                            √                      √
  36    HR0011-12-C-0104                                                           N/A                   N/A                        N/A
        Totals                       28                      12                    32                     32                         13

  √ Did not meet requirement
 N/A Firm-Fixed-Price contracts are exempt from this requirement
  1
     Evaluation report contained non-detailed responses
  2
     Evaluation report contained blank evaluation criteria
  3
     Evaluation report contained only “adjectival descriptions,” such as “Good” or “Excellent”
  4
     Program Manager Summary Sheet did not provide adequate rationale to support proposal selectability and funding recommendations
  5
     Price Negotiation Memorandum stated that the contractor’s accounting system was adequate, but the statement was not substantiated
  6
     No information contained within the Price Negotiation Memorandum about the adequacy of the contractor’s accounting system

34 │ DODIG-2013-126
                                                Management Comments




Management Comments
DefenseAdvanced
Defense Advanced Research
                Research   Projects
                         Projects Agency Comments

Agency Comments




                                                      DODIG-2013-126 │ 35
Management Comments



                 Defense Advanced Research Projects Agency
                 Comments (cont’d)




36 │ DODIG-2013-126                            34
                                            Management Comments



Defense Advanced Research Projects Agency
Comments (cont’d)




                              35                  DODIG-2013-126 │ 37
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                       ARPA Advanced Research Projects Agency
                        BAA Broad Agency Announcement
                       CMO Contracts Management Office
                      DARPA Defense Advanced Research Projects Agency
                          DI Defense Advanced Research Projects Agency Instruction
                        FAR Federal Acquisition Regulation
                         FFP Firm-Fixed-Price
                         RA Research Announcement
                        SRO Scientific Review Official




38 │ DODIG-2013-126
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
